<html>
<title> - REASSESSING THE EVOLVING AL-QAEDA THREAT TO THE HOMELAND</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





        REASSESSING THE EVOLVING AL-QAEDA THREAT TO THE HOMELAND

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON INTELLIGENCE, INFORMATION
                 SHARING, AND TERRORISM RISK ASSESSMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 19, 2009

                               __________

                           Serial No. 111-45

                               __________

       Printed for the use of the Committee on Homeland Security
                                     



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
55-595 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Mark E. Souder, Indiana
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Mike Rogers, Alabama
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Henry Cuellar, Texas                 Gus M. Bilirakis, Florida
Christopher P. Carney, Pennsylvania  Paul C. Broun, Georgia
Yvette D. Clarke, New York           Candice S. Miller, Michigan
Laura Richardson, California         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Anh ``Joseph'' Cao, Louisiana
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
William L. Owens, New York
Bill Pascrell, Jr., New Jersey
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Eric J.J. Massa, New York
Dina Titus, Nevada
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director

                                 ------                                

 SUBCOMMITTEE ON INTELLIGENCE, INFORMATION SHARING, AND TERRORISM RISK 
                               ASSESSMENT

                     Jane Harman, California, Chair
Christopher P. Carney, Pennsylvania  Michael T. McCaul, Texas
Yvette D. Clarke, New York           Charles W. Dent, Pennsylvania
Laura Richardson, California         Paul C. Broun, Georgia
Ann Kirkpatrick, Arizona             Mark E. Souder, Indiana
Al Green, Texas                      Peter T. King, New York (Ex 
James A. Himes, Connecticut              Officio)
Bennie G. Thompson, Mississippi (Ex 
    Officio)

                    Thomas M. Finan, Staff Director
                        Brandon Declet, Counsel
                   Natalie Nixon, Deputy Chief Clerk
             Meghann Perterlin, Minority Subcommittee Lead












                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Jane Harman, a Representative in Congress From the 
  State of California, and Chair, Subcommittee on Intelligence, 
  Information Sharing, and Terrorism Risk Assessment.............     1
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Ranking Member, Committee on 
  Homeland Security..............................................     3

                               Witnesses

Mr. Peter Bergen, Senior Research Fellow, American Strategy 
  Program, and Co-Director, Counterterrorism Strategy Initiative, 
  New America Foundation:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
Dr. Paul R. Pillar, Professor and Director of Graduate Studies, 
  Security Studies Program, Georgetown University:
  Oral Statement.................................................    16
  Prepared Statement.............................................    18
Dr. Martha Crenshaw, Senior Fellow, Center for International 
  Security and Cooperation, Stanford University:
  Oral Statement.................................................    21
  Prepared Statement.............................................    22
Lt. Gen. David W. Barno (Ret.), Director, Near East South Asia 
  Center for Strategic Studies, National Defense University, 
  Department of Defense:
  Oral Statement.................................................    27
  Prepared Statement.............................................    29

 
        REASSESSING THE EVOLVING AL-QAEDA THREAT TO THE HOMELAND

                              ----------                              


                      Thursday, November 19, 2009

             U.S. House of Representatives,
                    Committee on Homeland Security,
    Subcommittee on Intelligence, Information Sharing, and 
                                 Terrorism Risk Assessment,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 311, Cannon House Office Building, Hon. Jane Harman [Chair 
of the subcommittee] presiding.
    Present: Representatives Harman, Kirkpatrick, Green, Himes, 
King, Broun, and Souder.
    Also present: Representatives Jackson Lee, Pascrell, and 
Lungren.
    Ms. Harman [presiding]. Good morning. Good morning. The 
subcommittee will come to order.
    This subcommittee is meeting today to receive testimony on 
the current threat al-Qaeda poses to the United States. Our 
hearing is called, ``Reassessing the Evolving al-Qaeda Threat 
to the Homeland.''
    Just over a year ago, this subcommittee held a hearing at 
which I noted that al-Qaeda's desire and intent to attack us 
remained undiminished. Peter Bergen and Lawrence Wright, both 
renowned terrorism experts, testified at that hearing.
    Bergen asserted that al-Qaeda is losing the long-term 
battle for hearts and minds, but yet, has rebuilt its capacity 
along the Af-Pak border, and remains capable of launching 
large-scale attacks in the West. He predicted that the next 
terror attack in the United States will probably be committed 
by someone holding a European passport.
    Wright said that al-Qaeda attacks will continue. The only 
real question is scale. He described the organization as 
adaptive, flexible, and evolutionary, and a long way from 
extinction.
    We return to this topic today, because I, for one, believe 
al-Qaeda is more dangerous now than ever.
    I am just back from a trip with committee staff and some 
other colleagues, not on this committee, to Afghanistan and 
Pakistan, where meetings with foreign and American intelligence 
officials confirm that al-Qaeda is spreading from its safe 
haven along the Af-Pak border into Yemen, Somalia, and the 
Maghreb--and into the United States.
    Since 9/11, al-Qaeda has morphed from a top-down, 
vertically integrated entity into a loosely affiliated, 
horizontal structure. No doubt, we will hear more about that 
from Dr. Crenshaw.
    Despite considerable success by the United States and 
allies in taking out many high-value targets, Westerners 
continue to train in al-Qaeda camps in the FATA. Peter Bergen 
is our witness again today, and he in his testimony, which he 
will deliver shortly, puts the number at 25 American citizens 
or residents who have been charged with traveling to such 
training camps since 9/11.
    Al-Qaeda is also inspiring copy-cat-type attacks, which may 
be what the Hasan case is about. The ``new terrorist 
template,'' as TIME magazine calls it this week, will prove an 
even more difficult threat to mitigate than that posed by the 
original al-Qaeda.
    I have been focused on this threat for 8 years--first as 
the Ranking Member on the House Intelligence Committee, and now 
as Chair of this subcommittee. In fact, my exposure to it pre-
dates 
9/11, as I served on the congressionally mandated Commission on 
Terrorism in 1999 to 2000, which predicted, along with several 
other studies, a major terrorist attack on U.S. soil.
    There is much unfinished business. Our homeland remains 
vulnerable.
    Recent indictments in the United States against Najibullah 
Zazi and David Headley are of huge concern. I am concerned. 
These indictments are important, and I applaud the excellent 
work of the law enforcement and intelligence agencies involved, 
including the NYPD.
    Since 9/11, we have successfully tried and convicted more 
than 200 individuals with a history of or nexus to 
international terrorism--in the United States.
    Consistent with this strong record, I support Attorney 
General Holder's decision to refer Khalid Sheikh Mohammed and 
four other Gitmo detainees for trial in the Southern District 
of New York. I believe Holder's decision was carefully 
considered, that our prosecutions will be successful, that all 
five are likely to be convicted, and that by doing it this way, 
we will demonstrate to the world that we live by our values--
principal among them the rule of law.
    Today's hearing will update the subcommittee on the al-
Qaeda threat, and we welcome back Mr. Bergen, as well as 
terrorism experts Paul Pillar, Dr. Martha Crenshaw and retired 
General David Barno. Our witnesses seem to agree that al-Qaeda 
is still potent, although less capable of pulling off an attack 
of the same magnitude or larger than 9/11.
    It is Mr. Bergen's assessment that al-Qaeda now poses a 
``second order threat in which the worst case would be an al-
Qaeda-trained or inspired attack.''
    Mr. Pillar cites the importance of placing the threat from 
al-Qaeda within a larger context, one that includes other 
radical Islamist cells and individuals that may be motivated by 
grievances and sentiment al-Qaeda seeks to exploit. General 
Barno agrees.
    Finally, Dr. Crenshaw, who, as I mentioned, briefed us 
several weeks ago, asserts that sponsoring terrorist attacks in 
the West is an ideological imperative essential to the al-Qaeda 
identity and brand.
    I personally hope that President Obama's emerging Pak-Af 
strategy--and my emphasis on Pak is deliberate--will include a 
broad strategy for targeting al-Qaeda and any other terror 
group with worldwide reach, and mitigating their threat to the 
United States.
    I look forward to a very, very useful conversation, and 
want to welcome all of you.
    I will now recognize the gentleman from New York, Mr. King, 
who is Ranking Member of the full committee, who is sitting in 
for the Ranking Member of the subcommittee, for an opening 
statement.
    Before I do that, without objection, the gentleman from New 
Jersey, Mr. Pascrell, is authorized to sit on the dais for the 
purpose of questioning witnesses during the hearing today.
    Hearing no objection, so ordered.
    Mr. King.
    Mr. King. Thank you, Madame Chair.
    I, like you, remember the hearing that was held back in, I 
guess, the summer 2008. It was a fascinating hearing. I look 
forward to similar testimony here today, of similar insights 
today.
    To a large extent, I agree with what the Chair said. I also 
believe that al-Qaeda central, if you will, is much diminished 
since September 11. However, al-Qaeda has more. I do believe 
that. As we saw in London, Madrid--certainly in London--it is 
second and third generation. It is homegrown terrorists we have 
to be concerned about.
    Just in my own region, on Long Island, right outside my 
district, there was the Vinas case of a young man who was 
actually trained in an al-Qaeda camp.
    I think, Mr. Bergen, in your testimony you point out that 
our intelligence community has not been able to locate these 
camps, but a not particularly bright person from New York was 
able to find his way over there and receive the training, and 
which raises all sorts of questions. But it also shows that he 
was homegrown, he was active in the community, and he ended up 
in an al-Qaeda training camp.
    We have the Fort Dix case. We have the Zazi case, which 
probably would have been the most serious attack since 
September 11, had it not been stopped. Again, it was a person 
who, while he was born in Afghanistan, was to a large extent 
raised in New York, in Queens, played high school basketball 
and, in many ways, you would have thought was the typical young 
American. Yet, he came back to engage in jihad.
    Then, the Headley case in Chicago, which is very 
significant.
    So, this does seem to be, if not a change, certainly a 
morphing of al-Qaeda. So, I do look forward to your testimony 
on that.
    I know Mr. Pascrell and I have had differences on this over 
the years. To the extent to which the Muslim community in the 
United States is cooperative with law enforcement, and to the 
extent that they are not cooperative--I think it is a very real 
issue that has to be addressed, and political correctness put 
aside.
    Which also, I think, bears on the case of Major Hasan. To 
me, it is extraordinary some of the evidence that was there, 
that no action was taken against a senior officer in the United 
States Army with a security clearance. Yet, that was allowed to 
go on for as long as it did, leading to the tragedy which it 
did.
    While I did not intend us to bring it up, I will have to 
give my response to what the Chair said about the trial in New 
York. I think it is a dangerous mistake. I believe that we do 
comply with the law when we hold military tribunals. Military 
tribunals are part of our law. That is what should be done when 
we are dealing with enemy combatants.
    Also, as far as impressing the rest of the world, we had 
the first World Trade Center case tried in open court. We had 
the blind sheikh case tried in open court in the 1990s. We 
showed the world how honest we were, how fair we were, how just 
we were.
    During all that time, the USS Cole attack was being 
planned. There was Khobar Towers. There was the African 
embassies--and, of course, 9/11. All during and in the 
aftermath of these public trials, where so much coverage was 
given, and obviously, it did not seem to impress anyone.
    Also, much of--it was given in evidence at that trial, 
despite the best evidence of the prosecutors and the judges, 
which did help al-Qaeda. If nothing else, just the list of 
unindicted co-conspirators was very helpful to al-Qaeda.
    I would just ask the question that Senator Graham asked 
yesterday. If we capture bin Laden, is he going to be 
questioned by the military, or by the FBI? Are we allowed to 
question him? If he is questioned, can he then be brought to a 
civilian trial? Or does he have to be brought before a military 
tribunal? Will the soldier on the scene who captures him--if he 
does capture him--know what he is to do and not do?
    So, in any event, these are all issues that are probably 
not the purpose of today's hearing. I had not intended to bring 
it up, but lest my silence be interpreted as acquiescence, I 
thought I had to go on the record.
    With that, I yield back the balance of my time.
    Again, I commend the Chair for this hearing, as for the 
great hearing she had in summer 2008.
    I look forward to the testimony.
    Ms. Harman. I thank the Ranking Member. We may disagree on 
a few issues, but not only do I have great respect for him, but 
I am counting on him to keep my seven children and 
stepchildren, and all my grandchildren safe, because they all 
live in New York.
    Other Members of the subcommittee are reminded that, under 
the subcommittee rules, opening statements may be submitted for 
the record. We have large attendance here, I notice this 
morning, because the subject is important to all of us.
    So, let me now welcome our witnesses, beginning with Mr. 
Peter Bergen, who is currently Schwartz senior fellow at the 
New America Foundation in Washington. He is also a print and 
television journalist, reporting for publications such as the 
Washington Post, Los Angeles Times, Wall Street Journal, and he 
serves as CNN's senior security analyst.
    In 2008, he was an adjunct lecturer at the Kennedy School 
of Government at Harvard, and has also worked as an adjunct 
professor at the School of Advanced International Studies, 
SAIS, at Johns Hopkins University. He has authored two well-
known books on al-Qaeda, ``Holy War, Inc.: Inside the Secret 
World of bin Laden,'' and ``The Osama bin Laden I Know: An Oral 
History of al Qaeda's Leader.''
    Mr. Bergen brings unique experience, and is someone that I 
have consulted over the years.
    Welcome to the subcommittee.
    Let me introduce the rest of you right now, too, and then 
we will go down the row.
    Dr. Paul Pillar is a professor and the director of graduate 
studies overseeing the Security Studies Program at Georgetown 
University. He retired in 2005 from a 28-year career in the 
U.S. intelligence community, his last position being national 
intelligence officer for the Near East and South Asia.
    Dr. Pillar also served on the National Intelligence Council 
as one of the original members of its analytic group. Dr. 
Pillar was a Federal executive fellow at Brookings Institution 
from 1999 to 2000, and is a retired officer of the U.S. Army 
Reserve, and whose service included a tour in Vietnam.
    Dr. Martha Crenshaw is currently a senior fellow at the 
Center for International Security and Cooperation at Stanford 
University, where she also works as a professor of political 
science. Prior to this, she worked as a professor of government 
at Wesleyan University from 1974 to 2007. She is a lead 
investigator with the National Center for the Study of 
Terrorism and Response to Terrorism at the University of 
Maryland and has served on the executive board of Women in 
International Security, and chaired the American Political 
Science Association task force on political violence and 
terrorism.
    Finally, Lieutenant General David Barno is currently the 
director of Near East South Asia Center at the National Defense 
University. General Barno was recently appointed as the 
chairman of the Advisory Committee on Operation Iraqi Freedom 
and Operation Enduring Freedom Veterans and Families by the 
Secretary of Veterans Affairs.
    He holds degrees from West Point, Georgetown University, 
and the U.S. Army War College. In 2003, he deployed to 
Afghanistan for 19 months, commanding over 20,000 U.S. and 
coalition forces as part of Operation Enduring Freedom.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I would now ask Mr. Bergen to summarize his statement for 5 
minutes.

  STATEMENT OF PETER BERGEN, SENIOR RESEARCH FELLOW, AMERICAN 
 STRATEGY PROGRAM, AND CO-DIRECTOR, COUNTERTERRORISM STRATEGY 
               INITIATIVE, NEW AMERICA FOUNDATION

    Mr. Bergen. Thank you very much for the invitation to 
speak. Thank you very much, Chair Harman.
    We have already heard from both the Chair and also from the 
Ranking Member about Najibullah Zazi, Vinas, and Headley. If we 
had been having this discussion, I think, a year-and-a-half 
ago, I would have presented, I think, a much more optimistic 
picture of the threat, or a more sanguine picture of the 
threat.
    But I think when you have American citizens showing up in 
al-Qaeda training camps, when you have somebody like Headley, 
who the allegation is met with senior militants in the tribal 
areas, was going to conduct an operation against a Danish 
newspaper, or may even be involved in the Mumbai attacks, we 
are in a kind of different frame than we might have been 18 
months ago.
    Chair Harman mentioned this figure which NYU is coming out 
with a study, the Center of Law and Security, that 25 
Americans--either citizens or residents--have been convicted or 
charged with traveling to an overseas training camp. Now, of 
course, that number undercounts the real number, because, for 
instance, in the case of the Somali-Americans, there are 
probably about two dozen, most from Minnesota, who traveled to 
Somalia. Only three of that number have actually been charged 
or convicted of a crime.
    So, this number undercounts the number. I think it is a 
fairly large number, given the fact that it is going to a 
training camp that really makes a difference. I mean, it is one 
thing to be radicalized over the Internet. Anybody can watch a 
beheading video, and that does not really get you anywhere in 
terms of becoming a serious terrorist.
    If you look at the most serious terrorist attacks in the 
West in the last two decades, they have one thing in common, 
which is, at least the leader of the cell, and maybe several 
others, have actually gone to a war zone or gone to a jihadi 
training camp. If you do not have that experience, it is very 
hard to conduct a terrorist operation. You have to learn how to 
kill people, which is not something that is very natural to 
most people.
    I am also concerned about the fact that two Americans have 
conducted suicide operations in Somalia. The reason I am 
concerned about that is, once this idea sort of becomes part of 
the DNA of these groups, it can come home.
    The reason I say that with some certainty is the British 
were quite, I think, naive about the idea that British citizens 
would actually attack in the domestic United Kingdom--even 
though there had already been attacks by British citizens in 
Tel Aviv, a suicide attack in 2003, a suicide attack in Kashmir 
in 2000.
    The British government officially concluded that it was 
very unlikely that British citizens would conduct operations at 
home--suicide operations. Then, of course, 7/7 happened, and 
that conclusion collapsed.
    Which brings me to Major Hasan. We still do not know Major 
Hasan's exact motivations. Is he mostly an oddball with 
jihadist tendencies? Is he mostly a jihadist guy who is also an 
oddball?
    We do not quite understand the proportions. But the more we 
know about him, the more interesting his case becomes, and the 
more I would put it in the jihadist column.
    Here is a guy who dressed in white the morning when he went 
to the convenience store, the morning of the massacre. He 
dressed in white, which is a color associated with martyrdom in 
Islam. He gave away all his possessions. He told his neighbors 
that he was going to do God's work. He shouted ``Allahu 
Akbar.'' He screamed it at the top of his lungs as he conducted 
this massacre.
    He posted postings on the internet about suicide bombings. 
He made inquiries about the killings of innocents, and he also 
contacted an al-Qaeda--basically, an al-Qaeda apologist in 
Yemen--a cleric.
    Taken together, that, I think, adds up to a picture of 
somebody who is planning, essentially, a sort of jihadist death 
by cop.
    Major Hasan raises another issue, which is, if you are 
somebody with jihadist tendencies, the biggest, the most 
favorable target for you is the U.S. military. We have had a 
whole series of cases that I would point to.
    First of all, Abdul Hakim Mujahid--or Abdul Mujahid Hakim--
a case that has not gotten enough attention yet--was a guy who 
shot up the Little Rock recruiting center in Arkansas earlier 
this summer, killing an American soldier and wounding another.
    By the way, the middle name, Mujahid, it means ``holy 
warrior.'' It is a very unusual--it is not at all a common 
Muslim name. The fact that he changed that to make it his 
middle name, I think is significant.
    He also traveled to Yemen. He was on the FBI's radar 
screen, but managed to accumulate weapons, and then conduct an 
attack on this military center in broad daylight--one case.
    Another case, of course, is Hasan himself. Another case, of 
course, is the Fort Dix case. Another case which Chair Harman 
knows very well is the case in Torrance, California, where a 
group of guys who got radicalized in prison described 
themselves as al-Qaeda in California and had plans to attack 
synagogues during Yom Kippur and U.S. military bases and 
recruiting stations all around the country.
    So, just one final thought in the 20 seconds I have left.
    I think that we may have been a little complacent about the 
American Muslim community, which, on average, is much better 
educated than most Americans, has higher incomes, does not live 
in ghettos. But if you look at--and therefore, looks very 
different from their European Muslim counterparts.
    But if you look at Najibullah Zazi, who is basically, you 
know, a guy driving a shuttle bus at Denver airport, or the 
Somali-Americans who come from one of the most disadvantaged 
American communities, or if you look at Vinas, the guy from 
Long Island--you know, this is a guy, a high school drop-out.
    So, the profile of these people looks a bit more similar to 
the profile we have seen of European Muslims who might be 
attracted to jihadist ideology, and 30 years ago might have 
been attracted to some other revolutionary ideology. But 
militant jihadism is the ideology of the moment that also 
attaches itself to attacking the United States.
    [The statement of Mr. Bergen follows:]
                   Prepared Statement of Peter Bergen
                           November 19, 2009
    Chair Harman, committee Members, thank you for the opportunity to 
testify today. My testimony aims to address the evolving threat from 
al-Qaeda to the homeland, to include the threat from al-Qaeda itself, 
groups affiliated or allied to al-Qaeda, and those ``homegrown'' 
militants influenced by al-Qaeda ideas who have no connections to any 
formal jihadist group. This testimony does not aim to be exhaustive but 
to cover the most serious cases of recent years and to provide some 
overall threat assessment.
    Najibullah Zazi, a lanky Afghan-American man in his mid-twenties, 
walked into the Beauty Supply Warehouse in Aurora, Colorado, a suburb 
of Denver, on July 25, 2009, in a visit that was captured on a store 
video camera. Wearing a baseball cap and pushing a shopping cart down 
the aisles of the store, Zazi appeared to be just another suburban guy, 
although not too many suburban guys buy six bottles of Clairoxide hair 
bleach as Zazi did on this shopping trip. He then returned to the same 
store a month later where he purchased another dozen bottles of ``Ms. K 
Liquid,'' which is also a peroxide-based hair bleach. Aware that these 
were hardly the typical purchases of a heavily-bearded, dark-haired 
young man, Zazi--who had lived in the States since the age of 14--
kibitzed easily with the counter staff joking that he had to buy such 
large quantities of hair products because he ``had a lot of girl 
friends.''\1\
---------------------------------------------------------------------------
    \1\ This section draws on my piece in The New Republic, ``The 
Front,'' October 19, 2009. http://www.tnr.com/article/world/the-front. 
Also USA v. Najibullah Zazi, Eastern District of New York, Indictment. 
http://www.investigativeproject.org/documents/case_docs/1063.pdf and 
Michael Wilson, ``From smiling coffee vendor to terror suspect,'' New 
York Times, September 25, 2009. http://www.nytimes.com/2009/09/26/
nyregion/26profile.html.
---------------------------------------------------------------------------
    In fact Zazi, a sometime coffee cart operator on Wall Street, was 
planning to launch what could have been the deadliest terrorist attack 
in the United States since 9/11 using the seemingly innocuous hair 
bleach to assemble hydrogen peroxide-based bombs, a signature of al-
Qaeda plots in the past several years. During early September 2009, at 
the Homewood Studio Suites in Aurora Zazi mixed and cooked batches of 
the noxious chemicals in the kitchenette of his motel room. On the 
night of September 6, as Zazi labored over the stove he made a number 
of frantic calls to someone who he asked for advice on how to perfect 
the bombs. Two days later Zazi was on his way to New York in a rented 
car. By now President Obama was receiving daily briefings about Zazi, 
sometimes as many as three or four a day.\2\
---------------------------------------------------------------------------
    \2\ Anne Kornblut, ``Obama team says Zazi case illustrates balanced 
approach to terror threat,'' Washington Post, October 6, 2009. http://
www.washingtonpost.com/wp-dyn/content/article/2009/10/05/
AR2009100503989.html.
---------------------------------------------------------------------------
    Zazi was spotted in downtown Manhattan on Wall Street on the eighth 
anniversary of the 9/11 attacks just a few blocks from the gaping hole 
where the World Trade Center had once stood. By then he was under heavy 
FBI surveillance and 8 days later, after a series of voluntary 
discussions with Bureau agents, Zazi was arrested. Likely directed at 
various targets in and around Manhattan, America's leading authority on 
terrorism, Bruce Hoffman, described Zazi's plan as ``Mumbai-on-the-
Hudson.''\3\
---------------------------------------------------------------------------
    \3\ Interview with Bruce Hoffman, Washington, DC, September 2009.
---------------------------------------------------------------------------
    Zazi appears to have been the first genuine al-Qaeda recruit 
discovered living in the United States in years. Zazi had travelled to 
Pakistan in late August 2008 where by his own admission he was given 
training on explosives from al-Qaeda members in the Pakistani tribal 
regions along the Afghan border. On Zazi's laptop computer the FBI 
discovered he had stored pages of handwritten notes about the 
manufacture and initiation of explosives and the components of various 
detonators and fusing systems, technical know-how he had picked up at 
one of al-Qaeda's training facilities in the tribal regions sometime 
between the late summer of 2008 and January 2009, when he finally 
returned to the United States. The notations included references to 
TATP, the explosive used in the London 7/7 bombings.\4\
---------------------------------------------------------------------------
    \4\ USA vs Najibullah Zazi, Eastern District of New York, 09-CR-663 
Memorandum of law in support of the Government's motion for a permanent 
order of detention (Via IntelWire).
---------------------------------------------------------------------------
    The Zazi case was a reminder of al-Qaeda's ability to attract 
recruits living in America who are ``clean skins'' without previous 
criminal records or known terrorist associations and who are intimately 
familiar with the West. Similarly, Bryant Neal Vinas, a twenty-
something Hispanic-American convert to Islam from Queens, New York 
traveled to Pakistan's tribal areas in the summer of 2008, where he 
attended al-Qaeda training courses on explosives and handling weapons 
such as Rocket Propelled Grenades, lessons that he put to good use when 
he participated in a rocket attack on an American base in Afghanistan 
in September 2008.\5\ Vinas was captured in Pakistan the same month and 
was turned over to the FBI.* He told his interrogators that he had 
provided al-Qaeda members details about the Long Island Rail Road 
commuter train system, which the terror group had some kind of at least 
notional plan to attack.\6\
---------------------------------------------------------------------------
    \5\ USA vs Bryant Neal Vinas, Eastern District Court of New York 
08-CR-823. http://intelfiles.egoplex.com/2009-07-22-Bryant-Neal-Vinas-
Court-Docs.pdf. He pled guilty on January 28, 2009 to the charges 
against him.
    * The fact that 7 years after 9/11 a kid from Long Island managed 
to waltz into an al-Qaeda training camp, a feat that no American spy 
had done, despite the some $40 billion that the United States spends a 
year on its intelligence agencies, says a great deal about how the U.S. 
intelligence community actually works.
    \6\ William K. Rashbaum and Souad Mekhennet, ``L.I. man helped al 
Qaeda, the informed,'' New York Times, July 22, 2009. http://
www.nytimes.com/2009/07/23/nyregion/23terror.html.
---------------------------------------------------------------------------
    Surprisingly, even almost a decade after 9/11 a number of Americans 
bent on jihad managed to travel to al-Qaeda's headquarters in the 
tribal regions of Pakistan. In addition to Zazi and Vinas, David 
Headley, an American of Pakistani descent living in Chicago--who had 
legally changed his name from Daood Gilani in 2006 to avoid suspicion 
when he traveled abroad--also allegedly had significant dealings with 
terrorists based in Pakistan's tribal areas.\7\
---------------------------------------------------------------------------
    \7\ Headley information comes from United States vs. David C. 
Headley, Northern District of Illinois, Eastern Division, Affidavit in 
Support of Criminal Complaint. http://media1.suntimes.com/multimedia/
headley%20complaint.pdf_20091027_09_57_00_15.
imageContent.
---------------------------------------------------------------------------
    Sometime in 2008 Headley hatched a plan to attack the Danish 
newspaper Jyllands-Posten which 3 years earlier had published cartoons 
of the Prophet Muhammad that were deemed to be offensive by many 
Muslims. In a message to a Pakistan-based Yahoo group on October 29, 
2008 Headley wrote, ``Call me old fashioned but I feel disposed towards 
violence for the offending parties.''
    The cartoons of the Prophet have been a particular obsession of al-
Qaeda. In March 2008 bin Laden publicly denounced the publication of 
the cartoons as a ``catastrophe'' for which punishment would soon be 
meted out. Three months later, an al-Qaeda suicide attacker bombed the 
Danish Embassy in Islamabad, killing six. For al-Qaeda and allied 
groups the Danish cartoon controversy has assumed some of the same 
importance that Salman Rushdie's fictional writings about the Prophet 
had for Khomeini's Iran two decades earlier.
    In January 2009 Headley traveled to Copenhagen, where he 
reconnoitered the Jyllands-Posten newspaper on the pretext that he ran 
an immigration business that was looking to place some advertising in 
the paper. In coded correspondence with militants in Pakistan Headley 
referred to his plot to take revenge for the offensive cartoons as the 
``Mickey Mouse project.'' On one of his email accounts Headley listed a 
set of procedures for the project that included, ``Route Design,'' 
``Counter Surveillance'' and ``Security.''
    Following his trip to Denmark Headley met with Ilyas Kashmiri in 
the Pakistani tribal regions to brief him on his findings. Kashmiri is 
one of the most prominent militant leaders in Pakistan and runs a 
terrorist organization, Harakat-ul Jihad Islami, closely tied to al-
Qaeda. Headley returned to Chicago in mid-June 2009 and was arrested 
there 3 months later as he was preparing to leave for Pakistan again. 
He told investigators that he was planning to kill the Jyllands-
Posten's cultural editor Flemming Rose who had first commissioned the 
cartoons as well as the cartoonist Kurt Westergaard who had drawn the 
one he found most offensive; the Prophet Mohammed with a bomb concealed 
in his turban.
    Headley said that he also cased a synagogue near the Jyllands-
Posten newspaper headquarters at the direction of a member of Lashkar-
e-Taiba in Pakistan, the same group that had carried out the Mumbai 
attacks that killed some 165 people in late November 2008. The Lashkar-
e-Taiba militant Headley was in contact with mistakenly believed that 
the newspaper's cultural editor was Jewish. When he was arrested 
Headley had a book entitled ``How to Pray Like a Jew'' in his luggage 
and a memory stick containing a video of a close-up shot of the 
entrance to the Jyllands-Posten newspaper in Copenhagen.
    Indian authorities are presently examining if Headley also had any 
role in LeT's 2008 massacre in Mumbai. Reportedly Indian investigators 
have found that Headley visited a number of the Mumbai locations that 
were attacked including the Chabad Jewish Center, which was a 
particular target of LeT's gunmen and would help further explain why 
Headley had the book about Jewish prayer rituals in his luggage at the 
time of his arrest.\8\
---------------------------------------------------------------------------
    \8\ Vishwa Mohan, ``Headley, Rana may have been part of 26/11 
plot,'' Times of India, November 18, 2009. http://
timesofindia.indiatimes.com/india/Headley-Rana-may-have-been-part-of-
26/11-plot/articleshow/5241252.cms; Visha Mohan, ``India to move for 
extradition of Headley from US,'' Times of India, November 13, 2009. 
http://timesofindia.indiatimes.com/india/India-to-move-for-extradition-
of-Headley-from-US/articleshow/5224592.cms.
---------------------------------------------------------------------------
    For many years after 9/11 the United States Government had largely 
worried about terrorists coming into the country. David Headley is an 
American exporting the jihad overseas. But he is far from only the only 
one. According to an as-yet unpublished count by New York University's 
Center on Law & Security, 25 American citizens or residents have been 
charged with travelling to an overseas training camp or war zone since 
9/11: Two who trained with the Taliban, seven who trained with al-
Qaeda; ten who trained with the Pakistani terrorist group Lashkar-e-
Taiba; four with the Somali al-Qaeda affiliate, Al Shabab, and three 
who have trained with some unspecified jihadist outfit in Pakistan. 
(The actual number of Americans who have travelled overseas for jihad 
since 9/11 is significantly more than 25 as not everyone who does so 
ends up being charged or convicted of a crime.)
    In September 2009 the Somali Islamist insurgent group Al Shabab 
formally pledged allegiance to bin Laden following a 2-year period in 
which it had recruited Somali-Americans and other U.S. Muslims to fight 
in the war in Somalia. Six months earlier bin Laden had given his own 
imprimatur to the Somali jihad in an audiotape released titled ``Fight 
On, Champions of Somalia.''\9\ Many of Al Shabab's recruits from the 
States hailed from Minnesota where the largest number of the some 
200,000 Somali-Americans in the United States is concentrated.
---------------------------------------------------------------------------
    \9\ ``Fight on, champions of Somalia,'' Osama bin Laden tape, 
translated by NEFA Foundation, March 19, 2009. http://
www.nefafoundation.org/miscellaneous/nefaubl0309-2.pdf.
---------------------------------------------------------------------------
    In 2006 with American encouragement and support Ethiopia, a 
predominantly Christian country, invaded Somalia, an overwhelmingly 
Muslim nation, to overthrow the Islamist government there known as the 
Islamic Courts Union (ICU). While far from ideal the ICU was the first 
government in two decades to have brought some measure of stability to 
the failed Somali state but its rumored links to al-Qaeda-like groups 
had put it in the Bush administration's crosshairs.
    Perhaps two dozen Somali-Americans, motivated by a combination of 
nationalist pride and religious zeal, traveled to Somalia in 2007 and 
2008 to fight the Ethiopian occupation. Most of them associated 
themselves with Al Shabab--``the youth'' in Arabic--the insurgent group 
that would later proclaim itself to be an al-Qaeda affiliate.
    Al Shabab managed to plant al-Qaeda-like ideas into the heads of 
even its American recruits. Shirwa Ahmed grew up in Portland and 
Minneapolis. After graduating high school in 2003 he worked pushing 
airline passengers in wheel chairs at Minneapolis Airport and delivered 
packages for a medical supplies company. FBI director Robert Mueller 
said that some time during this period Ahmed was ``radicalized in his 
hometown in Minnesota.'' The exact mechanisms of that radicalization 
are still murky but in late 2007 Ahmed travelled to Somalia. A year 
later, on October 29, 2008 Ahmed drove a car loaded with explosives 
towards a government compound in Puntland, northern Somalia blowing 
himself up and killing as many as 30. He was the first American suicide 
attacker anywhere. It's possible that 18-year-old Omar Mohamud of 
Seattle was the second. On September 17, 2009 two stolen United Nations 
vehicles loaded with bombs blew up at Mogadishu airport killing more 
than a dozen peacekeepers of the African Union. The FBI is 
investigating if Mohamud was one of the bombers.\10\
---------------------------------------------------------------------------
    \10\ Spencer Hsu and Carrie Johnson, ``Somali Americans recruited 
by extremists,'' Washington Post, March 11, 2009. http://
www.washingtonpost.com/wp-dyn/content/article/2009/03/10/
AR2009031003901.html; ``FBI investigating Seattleite in suicide 
bombing,'' Associated Press, September 25, 2009. http://
www.msnbc.msn.com/id/33025395/ns/world_news-terrorism/.
---------------------------------------------------------------------------
    Al Shabab prominently featured its American recruits in its 
propaganda operations, releasing two videos in 2009 starring Abu 
Mansoor al Amriki (``the father of Mansoor, the American'') who is in 
fact Omar Hammani, a 25-year-old from Alabama who was raised as a 
Baptist before converting to Islam while he was at high school. In the 
video Amriki delivered an eloquent rejoinder to President Obama's 
speech in Cairo a month earlier in which he had extended an olive 
branch to the Muslim world. Mansoor addressed himself to Obama in a 
flat American accent: ``How dare you send greetings to the Muslim world 
while thousands of Muslims are being detained in your facilities. And 
how dare you send greetings to the Muslim world while you are bombing 
our brothers and sisters in Afghanistan. And how dare you send 
greetings to Muslims while you are supporting Israel, the most vicious 
and evil nation of the modern era.'' Another Al Shabab video from 2009 
showed al Amriki preparing an ambush against Ethiopian forces and 
featured English rap lyrics intercut with scenes of his rag-tag band 
traipsing through the African bush.\11\
---------------------------------------------------------------------------
    \11\ IntelCenter, transcript of al Shabaab video from Abu Mansoor 
al Amiriki, ``A response to Barack Obama's speech in Cairo,'' July 9, 
2009. http://www.nefafoundation.org/miscellaneous/FeaturedDocs/
nefa_abumansoor0709.pdf.
---------------------------------------------------------------------------
    The chances of getting killed in the Somalia were quite high for 
the couple of dozen or so Americans who volunteered to fight there; in 
addition to the two men who conducted suicide operations, six other 
Somali-Americans aged between 18 and 30 were killed in Somalia between 
2007 and 2009 as well as Ruben Shumpert, an African-American convert to 
Islam from Seattle.\12\ Given the high death rate of the Americans 
fighting in Somalia and also the considerable attention that this group 
has received from the FBI it is quite unlikely that American veterans 
of the Somali war pose much of a threat to the United States itself. It 
is however plausible now that Al Shabab has declared itself to be an 
al-Qaeda affiliate that the group might recruit U.S. citizens to engage 
in anti-American operations overseas.
---------------------------------------------------------------------------
    \12\ Spencer Hsu, ``Concern grows over recruitment of Somali 
Americans by Islamists,'' Washington Post, October 4, 2009. http://
www.washingtonpost.com/wp-dyn/content/article/2009/10/03/
AR2009100302901.html.
---------------------------------------------------------------------------
    The fact that American citizens had engaged in suicide operations 
in Somalia raises the possibility that suicide operations could start 
taking place in the United States itself; to discount this possibility 
would be to ignore the lessons of the British experience. On April 30, 
2003, two Britons of Pakistani descent walked into Mike's Place, a jazz 
club near the American Embassy in Tel Aviv, the Israeli capital. Once 
inside one of the men succeeded in detonating a bomb, killing himself 
and three bystanders, while the other man fled the scene.\13\ 
Similarly, Birmingham-born Mohammed Bilal blew himself up outside an 
army barracks in Indian-held Kashmir in December 2000, killing six 
Indian soldiers and three Kashmiri students, becoming the first British 
suicide bomber.\14\ Despite these suicide attacks the British security 
services had concluded after 9/11 that suicide bombings would not be 
much of a concern in the United Kingdom itself. Then came the four 
suicide attackers in London on July 7, 2005, which ended that 
complacent attitude.
---------------------------------------------------------------------------
    \13\ Israeli Ministry of Foreign Affairs, Details of April 30, 2003 
Tel Aviv suicide bombing, dated June 3, 2003. http://www.mfa.gov.il/
MFA/Government/Communiques/2003/
Details+of+April+30+2003+Tel+Aviv+suicide+bombing.htm.
    \14\ Emma Brockes, ``British man named as bomber who killed 10,'' 
The Guardian, December 28, 2000. http://www.guardian.co.uk/uk/2000/dec/
28/india.kashmir.
---------------------------------------------------------------------------
    The case of Major Nidal Malik Hasan, a Palestinian-American medical 
officer and a rigidly observant Muslim who made no secret of his 
opposition to America's wars in Iraq and Afghanistan and went on a 
shooting spree at the giant army base at Fort Hood, Texas on November 
5, 2009 killing 13 and wounding many more, seems to have been an 
attempted suicide operation in which Hassan planned a jihadist ``death-
by-cop.'' In the year before his killing spree Major Hasan had made web 
postings about suicide operations and the theological justification for 
the deaths of innocents and was in touch via email with a cleric in 
Yemen who is an al-Qaeda apologist.\15\
---------------------------------------------------------------------------
    \15\ Sudarsan Raghavan, ``Cleric says he was confidant to Hasan,'' 
Washington Post, November 16, 2009. http://www.washingtonpost.com/wp-
dyn/content/article/2009/11/15/AR2009111503160_pf.html.
---------------------------------------------------------------------------
    Early on the morning of the massacre, the deadliest ever on a U.S. 
military base, Major Hasan was filmed at a convenience store buying his 
regular snack dressed in white flowing robes. The color white is often 
associated with martyrdom in Islam, as the dead are wrapped in white 
winding sheets.\16\
---------------------------------------------------------------------------
    \16\ Maria Newman and Michael Brick, ``Neighbor says Hasab gave 
belongings away before attack,'' New York Times, November 7, 2009. 
http://www.nytimes.com/2009/11/07/us/07suspect.html; ``the color 
white'' from David Cook, Martyrdom in Islam (Cambridge University 
Press, 2007) p. 117.
---------------------------------------------------------------------------
    In the previous days Major Hasan had given away many of his 
possessions to his neighbors in the decrepit apartment block they 
shared, saying that he was leaving for an overseas deployment. Neighbor 
Lenna Brown recalled, ``I asked him where are you going, and he said 
Afghanistan.'' Asked how he felt about that, Major Hasan paused before 
answering: ``I am going to do God's work.'' He gave Brown a Koran 
before he left for what he believed to be his last day on earth.\17\
---------------------------------------------------------------------------
    \17\ Scott Shane and James Dao, ``Investigators study tangle of 
clues on Fort Hood suspect,'' New York Times, November 14, 2009. http:/
/www.nytimes.com/2009/11/15/us/15hasan.html.
---------------------------------------------------------------------------
    As he opened fire in a room full of fellow soldiers who were 
filling out paperwork for their deployments to Afghanistan and Iraq, 
Hasan shouted at the top of his lungs Allah Akbar! God is Great!, the 
battle cry of Muslim warriors down the centuries.\18\
---------------------------------------------------------------------------
    \18\ Sanjay Gupta on Anderson Cooper 360, interview with Logan 
Burnette, November 11, 2009. http://transcripts.cnn.com/TRANSCRIPTS/
0911/11/acd.01.html.
---------------------------------------------------------------------------
    Major Hasan is a social misfit who never married, largely avoided 
women (except, apparently, strippers)\19\ and had few friends, while 
the psychiatric counseling he gave to wounded veterans when he worked 
at Walter Reed Medical Army Center in Washington, DC might have 
contributed to a sense of impending doom about his own deployment to 
Afghanistan. But while Hasan was undoubtedly something of an oddball, 
in what he assumed to be his final days he seems to have conceived of 
himself as a holy warrior intent on martyrdom. Hasan survived being 
shot by a police officer and was put in intensive care in a hospital in 
San Antonio, Texas. After he woke up he found himself not in Paradise 
but paralyzed from the waist down and being interrogated by 
investigators to whom he has so far divulged nothing about the 
motivations for his rampage.
---------------------------------------------------------------------------
    \19\ Joseph Rhee, ``Accused Fort Hood shooter was a regular at 
shooting range, strip club,'' ABC News, November 16, 2009. http://
abcnews.go.com/Blotter/accused-fort-hood-shooter-nidal-hasan-visited-
strip/story?id=9090116.
---------------------------------------------------------------------------
    For Americans fired up by jihadist ideology, U.S. soldiers fighting 
two wars in Muslim countries were particularly inviting targets. 
Abdulhakim Mujahid Muhammad, an African-American convert to Islam, shot 
up a U.S. military recruiting station in Little Rock, Arkansas a few 
months before Hasan's murderous spree, killing an American soldier and 
wounding another. Despite the fact that the FBI had had him under 
surveillance following a mysterious trip that he had recently taken to 
Yemen, Muhammad was able to acquire guns and attack the recruiting 
station in broad daylight. When Muhammad was arrested in his vehicle 
police found a rifle with a laser sight, a revolver, ammunition, and 
the makings of Molotov cocktails.\20\ (The middle name that Muhammad 
assumed after his conversion to Islam, Mujahid or ``holy warrior,'' 
should have been a red flag, as this is a far from a common name among 
Muslims.)
---------------------------------------------------------------------------
    \20\ District Court of Little Rock, Arkansas, County of Pulaski, 
Affidavit for Search and Seizure Warrant. http://
www.investigativeproject.org/documents/case_docs/988.pdf.
---------------------------------------------------------------------------
    A group of some half dozen American citizens and residents of the 
small town of Willow Creek, North Carolina led by a charismatic convert 
to Islam, Daniel Boyd, who had fought in the jihad in Afghanistan 
against the Soviets, are also alleged to have had some kind of plan to 
attack American soldiers. Starting in 2008 Boyd purchased eight rifles 
and a revolver and members of his group did paramilitary training on 
two occasions in the summer of 2009. According to Federal prosecutors, 
members of Boyd's cell conceived of themselves as potential 
participants in overseas jihads from Israel to Pakistan. And Boyd 
obtained maps of Quantico Marine Base in Virginia, which he cased for a 
possible attack on June 12, 2009. He also allegedly possessed armor-
piercing ammunition saying it was ``to attack Americans'' and said that 
one of his weapons would be used ``for the base,'' an apparent 
reference to the Quantico facility.\21\
---------------------------------------------------------------------------
    \21\ USA vs Daniel Patrick Boyd et al Indictment in U.S. District 
Court for the Eastern District of North Carolina, filed 7/22/09 http://
www.investigativeproject.org/documents/case_docs/1029.pdf; and the 
superseding indictment in the same case dated September 24, 2009. 
http://www.investigativeproject.org/documents/case_docs/1075.pdf.
---------------------------------------------------------------------------
    Similarly, in 2007 a group of observant Muslims, a mix of 
Albanians, a Turk and a Palestinian, living in southern New Jersey 
angered by the Iraq War told a Government informant they had a plan to 
kill soldiers stationed at the Ft. Dix Army Base. One of the group made 
an amateur mistake when he went to a Circuit City store and asked for a 
video to be transferred to DVD. On the DVD a number of young men were 
shown shooting assault weapons and shouting Allah Akbar! during a 
January 2006 training session.\22\ An alarmed clerk at the Circuit City 
store alerted his superiors and quickly the FBI became involved in the 
case and an informant was inserted inside the group.
---------------------------------------------------------------------------
    \22\ Much of this information comes from the NEFA Foundation 
report, ``Fort Dix Plot,'' January 2008. http://www.nefafoundation.org/
miscellaneous/fortdixplot.pdf.
---------------------------------------------------------------------------
    One of the plotters, Serdar Tatar, knew the base well because he 
made deliveries there from his family's pizza parlor, Super Mario's 
Pizza. The Fort Dix plotters assembled a number of rifles and pistols 
and regularly conducted firearms training in the Pocono mountains of 
Pennsylvania and also went on paintball trips together, a common form 
of bonding for jihadist militants. The plotters also looked into 
purchasing an array of automatic weapons.\23\ And on August 11 2006 the 
ringleader, Mohamad Shnewer, conducted surveillance of the Ft. Dix base 
telling the Government informant: ``This is exactly what we are looking 
for. You hit four, five, six Humvees and light the whole place [up] and 
retreat completely without any losses.''\24\
---------------------------------------------------------------------------
    \23\ USA vs Mohhamad Ibrahim Shnewer, Dritan Duka, Eljvir Duka, 
Shain Duka, Sedrdar Tatar U.S. District Court, District of New Jersey, 
Criminal No 07-459. http://www.investigativeproject.org/documents/
case_docs/564.pdf.
    \24\ USA vs Mohamad Ibrahim Shnewer Criminal Complaint U.S. 
District Court, District of New Jersey filed May 7, 2007, page 11.
---------------------------------------------------------------------------
    Another group that planned to attack U.S. military installations 
was led by Kevin Lamar James, an African-American convert to Islam who 
formed a group dedicated to holy war while he was jailed in 
California's Folsom prison during the late 1990s. James, who viewed his 
outfit as ``al-Qaeda in California,'' cooked up a plan to recruit five 
people, in particular those without criminal records, to help him with 
his plans. One of his recruits had a job at Los Angeles Airport (LAX), 
which James thought could be useful. In a list he made of potential 
targets James listed LAX, the Israeli consulate in Los Angeles, a U.S. 
Army base in Manhattan Beach and ``Army recruiting centers throughout 
the country.''\25\
---------------------------------------------------------------------------
    \25\ USA vs Kevin James et al U.S. District Court for the Central 
District of California Case No. CR 05-214-CJC and exhibits. http://
www.investigativeproject.org/documents/case_docs/1089.pdf.
---------------------------------------------------------------------------
    James' crew planned to attack a U.S. military recruiting station in 
Los Angeles on the fourth anniversary of 9/11 as well as a synagogue a 
month later during Yom Kippur, the most solemn of Jewish holidays. They 
financed their activities by sticking up gas stations and their plans 
only came to light during the course of a routine investigation of a 
gas station robbery by police in Torrance, California who found 
documents that laid out their plans for jihadist mayhem.
    The constellation of terrorism cases that surfaced during the 
second Bush term and during Obama's first year in office suggests that 
a small minority of Americans Muslims are not immune to the al-Qaeda 
ideological virus. And quite a number of those terrorism cases were 
more operational than aspirational, unlike many of the domestic terror 
cases that had preceded them following 9/11. The jihadists in these 
cases were not just talking about violent acts to a government 
informant but had actually traveled to an al-Qaeda training camp; had 
fought in an overseas jihad; had purchased guns or explosives; were 
casing targets, and in a couple of the cases, had actually killed 
Americans.
    The cases in the past few years have also presented an interesting 
mix of purely ``homegrown'' militants who are essentially lone wolves 
like Major Hasan and Abdulhakim Mujahid Muhammad, who nonetheless both 
were able to pull off deadly attacks against U.S. military targets; 
``self-starting'' radicals with no connections to al-Qaeda but inspired 
by its ideas, like the Torrance cell who posed a serious threat to 
Jewish and military targets in the United States and whose plans for 
mass mayhem were, crucially, not driven forward by an informant; 
homegrown militants opting to fight in an overseas jihad with an al-
Qaeda affiliate as the Somali-Americans recruits to Al Shabab have 
done; militants like David Headley who is alleged to have played an 
important operational role for the militant group Lashkar-e-Taiba, 
which is acting today with an increasingly al-Qaeda-like agenda, and 
finally those like Zazi and Vinas who managed to plug directly into al-
Qaeda central.
    According to the forthcoming study by New York University's Center 
on Law & Security since 9/11 the Government has charged or convicted at 
least 20 Americans and foreigners who have direct connections to al-
Qaeda and were conspiring with the group to carry out some type of 
attack; a further nine have attended one of al-Qaeda's training camps 
but did not have an operational terrorist plan, and a further two dozen 
``homegrown'' militants aspired to help al-Qaeda in some other way but 
were either ensnared by a Government informant or simply failed to 
connect with the group because of their own incompetence.
    This raises the question of what kind of exact threat to the 
homeland is posed by this cohort of militants who run the gamut from 
incompetent ``homegrowns'' to American citizens who have been trained 
by al-Qaeda itself?
    If the Government's allegations are correct and Zazi had managed to 
carry out his plans, he could have killed scores of Americans as his 
plan looks similar to that of the al-Qaeda-directed bombers in London 
who killed 52 commuters on July 7, 2005 with the same kind of hydrogen 
peroxide-based bombs that Zazi was assembling in his Denver motel room. 
But the Zazi case also represents the outer limit of al-Qaeda's 
capabilities in the United States today.
    Some have suggested that the reason that al-Qaeda has not attacked 
the United States again is because the group is waiting to match or top 
the 9/11 attacks. Michael Scheuer, the former head of CIA's bin Laden 
unit, has said that, ``They're not interested in an attack that is the 
same size as the last one.''\26\ This proposition cannot be readily 
tested, as the absence of a 9/11-scale attack on the United States is, 
in this view, supposedly just more evidence for the assertion that al-
Qaeda is planning something on the scale of 9/11 or larger. In fact, 
the Zazi case forcefully demonstrates that al-Qaeda is not waiting to 
launch ``the big one'' but is content to get any kind of terrorist 
operation going in the United States, even a relatively small-bore 
attack.
---------------------------------------------------------------------------
    \26\ Joel Roberts, CBS News, June 18, 2006. http://www.cbsnews.com/
stories/2006/06/18/terror/main1726666.shtml.
---------------------------------------------------------------------------
    Indeed, it is my assessment that the al-Qaeda organization today no 
longer poses a direct National security threat to the United States 
itself, but rather poses a second-order threat in which the worst case 
scenario would be an al-Qaeda-trained or -inspired terrorist managing 
to pull off an attack on the scale of something in between the 1993 
Trade Center attack, which killed six, and the Oklahoma City bombing of 
1995, which killed 168. While this, of course, would be tragic, it 
would not constitute a mass casualty attack sufficiently large in scale 
to reorient American national security policy completely as the 9/11 
attacks did.
    An important element in al-Qaeda's much degraded capability to 
launch a mass casualty attack on the American homeland is the pressure 
it is under in Pakistan; including ramped-up U.S. drone attacks in the 
Pakistani tribal regions where the group is headquartered; far better 
intelligence on the militants based in those tribal areas, and 
increasingly negative Pakistani public and governmental attitudes 
towards militant jihadist groups based in Pakistan.
    There are, however, three important caveats on the success of the 
drone operations: First, the Afghan-American Najibullah Zazi was still 
able to receive training on explosives from al-Qaeda in the tribal 
regions of Pakistan during the fall of 2009 after the drone program had 
been dramatically ramped up there. Second, militant organizations like 
al-Qaeda are not like an organized crime family, which can be put out 
of business if most or all of the members of the family are captured or 
killed. Al-Qaeda has sustained and can continue to sustain enormous 
blows that would put other organizations out of business because the 
members of the group firmly believe that they are doing God's work and 
tactical setbacks do not matter in the short run. Third, it is highly 
unlikely that the drone program will be expanded outside of the tribal 
regions into other areas of Pakistan because of intense Pakistani 
opposition to such a move. Understanding that fact, some militants have 
undoubtedly moved into safer parts of Pakistan.
    The threat posed by al-Qaeda to American interests and allies 
overseas continues to be somewhat high. Despite all the pressure placed 
on al-Qaeda in Afghanistan and Pakistan since 9/11, training has 
continued in Pakistan's tribal areas and is the common link between the 
terrorist group's ``successes'' and its near-misses since then; for 
instance, the deadliest terrorist attack in British history--the four 
suicide bombings on London's transportation system on July 7, 2005--was 
directed by al-Qaeda from the tribal regions.
    The four bombs that detonated in London on what became known as 7/7 
were all hydrogen peroxide-based devices. This has become something of 
a signature of plots that have a connection to Pakistani training 
camps. Two weeks after the 7/7 attacks on July 21, 2005 there was a 
second wave of hydrogen peroxide-based bombs set off in London, this 
one organized by a cell of Somali and Eritrean men who were first-
generation immigrants to the United Kingdom. Luckily the bombs were 
ineffective.
    Hydrogen peroxide-based bombs would again be the signature of a 
cell of British Pakistanis who plotted to bring down seven passenger 
jets flying to the United States and Canada from the United Kingdom 
during the summer of 2006. The plotters distilled hydrogen peroxide to 
manufacture liquid explosives, which they assembled in an apartment-
turned-bomb factory in East London. The case resulted in the immediate 
ban of all carry-on liquids and gels, and rules were later put in place 
to limit the amounts of these items that travelers could bring on 
planes.
    The ``planes plot'' conspirators were arrested in August 2006 and 
in subsequent congressional testimony Lieutenant General Michael 
Maples, the head of the U.S. Defense Intelligence Agency, said the plot 
was ``directed by al-Qaeda leadership in Pakistan.''\27\
---------------------------------------------------------------------------
    \27\ Michael Maples, ``Current and Projected National Security 
Threats to the United States,'' Statement for the record, Senate Select 
Committee on Intelligence, January 11, 2007. http://www.dia.mil/
publicaffairs/Testimonies/statement26.html.
---------------------------------------------------------------------------
    During the trial of the eight men accused in the ``planes plot'' 
the prosecution argued that some 1,500 passengers would have died if 
all seven planes had been brought down. The plot, which was entering 
its final stages in the summer of 2006, seemed designed to 
``celebrate'' the upcoming fifth anniversary of 9/11 by once again 
targeting commercial aviation, another particular obsession of al-
Qaeda. Most of the victims of the attacks would have been Americans, 
Britons, and Canadians.
    The seriousness of the intent of the plotters can be seen in the 
fact that six of them made ``martyrdom'' videotapes recovered by 
British investigators. At their trial prosecutors played the video made 
by the ringleader, 25-year-old Abdullah Ahmed Ali. Against a backdrop 
of a black flag adorned with flowing Arabic script and dressed in a 
Palestinian-style black-and-white checkered head scarf. Ali lectured 
into the camera, ``Sheikh Osama warned you many times to leave our 
lands or you will be destroyed. Now the time has come for you to be 
destroyed.''\28\
---------------------------------------------------------------------------
    \28\ Cahal Milmo, ``You will be destroyed: bombers convicted of 
Heathrow plot,'' The Independent, September 9, 2008. http://
www.independent.co.uk/news/uk/crime/you-will-be-destroyed-bombers-
convicted-of-heathrow-plot-923467.html.
---------------------------------------------------------------------------
    In September Ali and two of his co-conspirators were found guilty 
of planning to blow up the transatlantic airliners. Some of the key 
evidence against them was emails they had exchanged with their handler 
in Pakistan Rashid Rauf, a British citizen who has worked closely with 
al-Qaeda, who ordered them ``to get a move on'' with their operation in 
an email he sent them on July 25, 2006.\29\ Those emails were 
intercepted by American spy agencies which led to the arrests of Ali 
and his cell.
---------------------------------------------------------------------------
    \29\ Henry Chu and Sebastian Rotella, ``Three Britons convicted of 
plot to blow up planes,'' Los Angeles Times, September 8, 2009. http://
www.latimes.com/news/nationworld/world/la-fg-britain-verdict8-
2009sep08,0,7134412,full.story.
---------------------------------------------------------------------------
    Pakistan's tribal regions have continued to attract Westerners 
intent on inflicting jihadist mayhem against American targets, like the 
two Germans and a Turk residing in Germany who were planning to bomb 
the massive U.S. Ramstein airbase there in 2007. Before their arrests, 
the men had obtained 1,600 pounds of industrial strength hydrogen 
peroxide, enough to make a number of large bombs.
    Today the al-Qaeda the organization continues to pose a substantial 
threat to U.S. interests overseas and could still pull off an attack 
that would kill hundreds of Americans as was the plan during the 
``planes plot'' of 2006. No Western country is more threatened by al-
Qaeda than the United Kingdom, although a spate of arrests and 
successful prosecutions over the past 4 years have degraded the 
terrorist's group's capability in the United Kingdom.
    Despite the relatively serious terror cases emerging in the United 
States in 2008 and 2009 America did not have a jihadist terrorism 
problem anywhere on the scale of Britain where an al-Qaeda-directed 
cell had launched the deadliest terrorist attack in British history in 
2005, and where 4 years later British intelligence had identified as 
many as 2,000 citizens or residents who posed a ``serious'' threat to 
security, many of whom were linked to al-Qaeda, in a country with only 
a fifth of the population of the United States.\30\
---------------------------------------------------------------------------
    \30\ Michael Evans, ``MI5's spymaster Jonathan Evans comes out of 
the shadows,'' Times of London, January 7, 2009. http://
www.timesonline.co.uk/tol/news/uk/article5462528.ece.
---------------------------------------------------------------------------
    Why is the threat from al-Qaeda lower in the United States than it 
is in the United Kingdom? There is little doubt that some of the 
measures the Bush administration and Congress took after 9/11 made 
Americans safer. First, the Patriot Act accomplished something quite 
important, which was to break down the legal ``wall'' that had been 
blocking the flow of information between the CIA and the FBI. Second, 
the creation of the National Counter Terrorism Center led to various 
Government agencies sharing data and analyzing it under one roof. 
(Although it should be noted that the center was the brainchild of the 
9/11 Commission--whose establishment the Bush administration fought 
tooth-and-nail for more than a year.) Third, it became much harder for 
terrorists to get into the country thanks to no-fly lists. Before 9/11 
the total number of suspected terrorists banned from air travel totaled 
just 16 names; while 6 years later there were at least 44,000.\31\
---------------------------------------------------------------------------
    \31\ CBS 60 Minutes, October 8, 2006. http://www.cbsnews.com/
stories/2006/10/05/60minutes/main2066624.shtml.
---------------------------------------------------------------------------
    The most dramatic instance of how the no-fly list prevented 
potential terrorists from arriving in the United States was the case of 
Raed al Banna--a 32-year-old Jordanian English-speaking lawyer who was 
denied entry at Chicago's O'Hare airport on 14 June 2003 because border 
officials detected ``multiple terrorist risk factors.'' A year and half 
later al Banna conducted a suicide bombing in Hilla, Iraq on 28 
February 2005 that killed 132 people--his fingerprints were found on 
the severed hand chained to the steering wheel of his bomb-filled 
truck.\32\
---------------------------------------------------------------------------
    \32\ Scott Shane and Lowell Bergman, ``Adding up the ounces of 
prevention,'' New York Times, September 10, 2006. http://
www.nytimes.com/2006/09/10/weekinreview/10shane.html; Scott Macleod, 
``A jihadist's tale,'' Time, March 28, 2005. http://www.time.com/time/
magazine/article/0,9171,1042473,00.html; Charlotte Buchen, ``The man 
turned away,'' PBS Frontline, ``The Enemy Within,'' http://www.pbs.org/
wgbh/pages/frontline/enemywithin/reality/al-banna.html.
---------------------------------------------------------------------------
    Finally, cooperation between U.S. and foreign intelligence agencies 
has been generally strong after September 11. For instance, al-Qaeda's 
2006 plot to bring down the seven American and Canadian airliners was 
disrupted by the joint work of U.S., British, and Pakistani 
intelligence services.
    That said, a key reason the United States escaped a serious 
terrorist attack has little to do with either the Bush or Obama 
administrations. In sharp contrast to Muslim populations in European 
countries like Britain--where al-Qaeda has found recruits for multiple 
serious terrorist plots--the American Muslim community has largely 
rejected the ideological virus of militant Islam. The ``American 
Dream'' has generally worked well for Muslims in the United States, who 
are both better-educated and wealthier than the average American. More 
than a third of Muslim Americans have a graduate degree or better, 
compared to less than 10% of the population as a whole.\33\
---------------------------------------------------------------------------
    \33\ Daniel Benjamin and Steven Simon, The Next Attack (Macmillan, 
2006). P. 119.
---------------------------------------------------------------------------
    For European Muslims there is no analogous ``British Dream,'' 
``French Dream,'' or, needless to say, ``EU Dream.'' None of this is to 
say that the limited job opportunities and segregation that are the lot 
of many European Muslims are the causes of terrorism in Europe--only 
that such conditions may create favorable circumstances in which al-
Qaeda can recruit and feed into bin Laden's master narrative that the 
infidel West is at war with Muslims in some shape or form all around 
the world. And, in the absence of those conditions militant Islam has 
never gained much of an American foothold--largely sparing the United 
States from the scourge of homegrown terrorism. This is fundamentally a 
testament to American pluralism, not any action of the American 
Government.
    An important caveat: Some of the men drawn to jihad in America in 
recent years looked much like their largely disadvantaged and poorly 
integrated European Muslim counterparts. The Afghan-American al-Qaeda 
recruit, Najibullah Zazi, a high school dropout, earned his living as 
an airport shuttle bus driver; the Somali-American community in the 
Cedar Riverside neighborhood of Minneapolis where some of the young men 
who volunteered to fight in Somalia had lived, is largely ghettoized. 
Family incomes there average less than $15,000 a year and the 
unemployment rate is 17%.\34\ Bryant Neal Vinas, the kid from Long 
Island who volunteered for a suicide mission with al-Qaeda, skipped 
college, washed out of the U.S. Army after 3 weeks and later became a 
truck driver, a job he quit for good in 2007.\35\ The five men in the 
Fort Dix cell were all illegal immigrants who supported themselves with 
construction or delivery jobs.
---------------------------------------------------------------------------
    \34\ Abdirahman Mukhtar, testimony before the Senate Homeland 
Security and Governmental Affairs Committee, March 11, 2009. http://
hsgac.senate.gov/public/
index.cfm?FuseAction=Files.View&FileStore_id=c762508c-3694-4894-808a-
229fafb1d8d9.
    \35\ TIME magazine profile by Claire Suddath, July 24, 2009, http:/
/www.time.com/time/nation/article/0,8599,1912512,00.html and Michael 
Powell, ``U.S. recruit reveals how Qaeda trains foreigners,'' New York 
Times, July 23, 2009. http://www.nytimes.com/2009/07/24/nyregion/
24terror.html.
---------------------------------------------------------------------------
    Decades ago the anger and disappointments of some of these men 
might have been funneled into revolutionary anti-American movements 
like the Weather Underground or Black Panthers. Today, militant 
jihadism provides a similar outlet for the rage of young men with its 
false promises of a total explication of the world, which is grafted on 
to a profound hatred for the West, in particular, the United States.

    Ms. Harman. Thank you very much.
    Dr. Pillar.

STATEMENT OF PAUL R. PILLAR, PROFESSOR AND DIRECTOR OF GRADUATE 
    STUDIES, SECURITY STUDIES PROGRAM, GEORGETOWN UNIVERSITY

    Mr. Pillar. Thank you, Madame Chair, and Mr. King and 
Members of the committee.
    Although the title of this hearing refers explicitly to al-
Qaeda, I take the committee's interest to be terrorist threats 
in general to the U.S. homeland, which are not solely a matter 
of al-Qaeda or any other single group. By al-Qaeda, I am 
talking about al-Qaeda Central.
    Although there is a widespread tendency to gauge the 
seriousness of any incident to the extent that we can draw 
links to someone or something connected to al-Qaeda, the whole 
notion of links needs to be handled more carefully than it 
customarily is. Links can and do mean anything from command and 
control on the one extreme, to the most casual or feckless 
contacts on the other. They do not themselves indicate where 
the initiative came from.
    A key question to consider is why and how individuals 
become radicalized to the extent that they commit or attempt or 
even contemplate politically motivated violence. A terrorist 
group or leader can provide an ideological framework or 
inspiration, but individual, pre-existing anger or discontent 
that is sufficiently strong for the blandishments of a 
terrorist group to have any appeal in the first place, is a 
necessary ingredient.
    That predisposition, in turn, can have any or all of 
several sources--and we have seen some of this in the recent 
incidents--ranging from personal frustrations to anger over 
controversial public policies. To the extent that we want to 
understand U.S. citizens or U.S. persons turning to terrorism 
against the United States, those are the sources to which we 
have to look.
    I would summarize the most important patterns in 
international terrorism with particular reference to threats to 
the U.S. homeland in the 8 years since 9/11 with two 
observations. Madame Chair, you basically touched on this 
yourself in your opening comments.
    First, the group that accomplished 9/11, al-Qaeda Central, 
although still a threat, is less capable of pulling off 
something of that magnitude than it was in 2001. For that, we 
have in large part to thank many of the variety of measures 
that the American people's outrage over 9/11 made possible, 
politically possible, in a way that was not possible before 
that event. That includes enhanced defensive security measures 
here at home, as well as a variety of offensive measures 
overseas.
    The other observation is that the broader, violent jihadist 
movement--of which al-Qaeda Central is a part--is probably at 
least as large and widespread as it was 8 years ago. Here 
again, some of our own actions have been major contributors, 
especially, I must add, the war in Iraq.
    The overall result of these trends is a more diffuse 
threat, in which the initiative for violence and attacks comes 
from more different places than it did a few years ago.
    It is against this backdrop that we have to view the 
specter of people here in the United States--including, 
possibly, U.S. citizens--perpetrating terrorist attacks within 
the United States. Homegrown perpetrators have certain 
advantages over outsiders, after all. They do not have to cross 
the borders, where we have enhanced our security. They do not 
stand out. In short, they are harder to detect.
    This does make them more attractive, potential recruits for 
foreign terrorist groups. But for the same reason, any U.S. 
persons who do turn to terrorism would present a significant 
counterterrorist challenge, whether or not they are affiliated 
with a foreign group.
    Peter Bergen has already addressed quite well the 
comparison between the United States and Europe as far as the 
American Muslim community is concerned. I agree with everything 
he said.
    I would just say that, incidents to date here in our 
country do not add up to a significant homegrown Islamist 
terrorist problem in the United States, at least not yet. But 
episodes like the shooting at Fort Hood suggest the possibility 
of more, and they suggest the sorts of reasons and motivations 
that could make for more.
    Finally, I was asked, Madame Chair, to comment on what 
effect U.S. policies and warfighting have on threats to the 
United States. Here is basically two points, as well.
    Some uses of force overseas--including, for example, the 
firing of missiles from unmanned aircraft in Pakistan--have 
contributed to the eroding of the organizational capabilities 
of foreign terrorist groups, and, specifically, al-Qaeda.
    On the other hand, the use of military force can and does 
exacerbate the terrorist threat by stoking anger against the 
United States and U.S. policies, largely because of inevitable 
collateral damage.
    We have seen this take place in Pakistan. We have seen it 
take place in Afghanistan. The same sort of sentiments can 
arise here in the United States.
    However one chooses to characterize or label what Nidal 
Hasan did at Fort Hood, his reported sentiments about America's 
current overseas wars and how they figure into the action he 
took, illustrate a phenomenon that we should not be surprised 
to see more of.
    Thank you. I look forward to your questions.
    [The statement of Mr. Pillar follows:]
                  Prepared Statement of Paul R. Pillar
                            19 November 2009
    Thank you for the opportunity to testify to the subcommittee 
regarding the nature and evolution of the terrorist threat to the U.S. 
homeland. The title of the hearing refers to a single terrorist group, 
al-Qaeda, but it is important to place the threat from that group 
within a larger context that includes other radical Islamist cells and 
individuals--some that may have already gotten into terrorism, and some 
that may do so in the future--that also constitute portions of that 
threat. Many of those cells and individuals may be motivated by 
grievances and sentiments that al-Qaeda has sought to exploit. Some may 
even be sympathetic to some of al-Qaeda's aims. But this does not 
necessarily mean that their activity has been instigated, organized, or 
directed by al-Qaeda.
    There is a widespread tendency to gauge the seriousness with which 
one ought to view any instance of political violence or attempted 
violence according to whether or not it is ``linked'' to al-Qaeda, or 
linked to something or someplace that is in turn linked to al-Qaeda. 
The existence of such links is taken as an indicator that we ought to 
be concerned; their absence is taken as reason not to worry, or to 
worry less. This manner of interpreting incidents or plots is a 
misleading way of assessing terrorist threats to the U.S. homeland.
    The whole notion of ``links'' needs to be used with far more care 
and caution than it customarily is. Links can--and do--mean anything 
from operational control to the most innocuous and casual contacts that 
tell us nothing about the impetus for terrorism. Even if a link is 
firmly established and goes beyond casual contact, it does not by 
itself tell us from which end of the link the initiative to establish 
it came.
    It is appropriate that the committee should reexamine the terrorist 
threat to the U.S. homeland in light of several incidents or alleged 
plots that have been in the news in recent months. Such episodes do 
raise important issues about the nature of that threat. As a private 
citizen, I cannot add to the factual knowledge about any incident 
beyond what you already have read in the newspapers. In any event, 
caution is required in drawing conclusions about larger patterns from 
individual incidents. We tend to take one incident as a pattern and two 
as a trend, even if it is not.
                        roots of radicalization
    With those caveats, one key question to consider is why and how 
individuals become radicalized to the extent that they commit or 
attempt, or even contemplate, terrorist violence. A terrorist group or 
leader may provide an ideology that rationalizes extreme acts and in 
some cases an organizational structure that facilitates carrying them 
out. A necessary ingredient, however, is individual pre-existing anger 
or discontent that is sufficiently strong for the blandishments of a 
terrorist group to have any appeal in the first place. That 
predisposition in turn may have any or all of several sources, ranging 
from frustrating personal circumstances to public policies that incur 
more widespread ire and controversy. To the extent that people in the 
United States, including U.S. citizens, are turning onto the malevolent 
path of terrorism against the United States itself, such sources 
provide the most important part of the explanation for why they doing 
so. Even the most adept and aggressively proselytizing foreign 
terrorist group could not make gains without raw material in the form 
of disaffected and alienated individuals.
    And even when a foreign terrorist group, be it al-Qaeda or any 
other, does manage to get involved, the initiative is as likely as not 
to come from the individual. Najibullah Zasi--although there is much 
about his case that is not publicly known and more that we probably 
will find out in the future--appears to have become radicalized during 
his days selling coffee and pastries from a cart in lower Manhattan. 
This was before, not after, he reportedly spent time at a training camp 
in Pakistan. And of course, one needs a prior motive to do something 
like trekking to the other side of the globe to attend such a camp.
    To the extent that a foreign group such as al-Qaeda is having any 
influence on disaffected Americans, it is less through face-to-face 
direction or instruction and more through an extreme ideology. Al-Qaeda 
and in particular the leadership of al-Qaeda, in the persons of bin 
Ladin and Zawahiri, is today less relevant to the security of the U.S. 
homeland as a source of operational instigation, direction, and control 
than as a source of malevolent ideas.
                              major trends
    The most important patterns in international terrorism, with 
particular reference to threats to the U.S. homeland, in the 8 years 
since 9/11 can be summarized in two trends pointing in different 
directions. The first is that the group that accomplished 9/11, al-
Qaeda, is--although still a threat--less capable of pulling off 
something of that magnitude than it was in 2001. This is possible in 
large part because of a variety of measures that the outrage of the 
American public made politically possible in a way that was not 
possible before 9/11. These include enhanced defensive security 
measures at home as well as expanded offensive efforts overseas that 
have eroded al-Qaeda's organizational infrastructure.
    The other major pattern or trend is that the broader violent 
jihadist movement of which al-Qaeda is a part is probably at least as 
large and strong as it was 8 years ago. Here again, some of our own 
actions have been major contributors. The war in Iraq was one such 
action. It provided a jihadists' training ground and networking 
opportunity similar to what the war against the Soviets in Afghanistan 
had provided two decades earlier. And in the words of the U.S. 
intelligence community, the war in Iraq became a ``cause celebre'' for 
radical Islamists.
    The overall result of these two trends is a terrorist threat that 
is more diffuse than it was several years ago. The centers of action 
and initiative for possible attacks, including against the U.S. 
homeland, are more numerous than they were several years ago.
                          home-grown terrorism
    Against this backdrop is the specter--raised anew by some of the 
recent incidents--of people in the United States, including U.S. 
citizens, in effect adopting some variant of radical Islamism and 
perpetrating terrorist attacks within the United States. The 
possibility is worthy of attention, if for no other reason because of 
the operational advantages and opportunities this represents for 
terrorists. Home-grown perpetrators have significant advantages over 
foreign operatives who, like the 9/11 terrorists, come into the country 
from abroad to commit their deed. The natives do not have to deal with 
enhanced border control procedures. They do not stand out. They are, in 
short, harder to detect. And they are more familiar with the territory 
and with their targets.
    These operational advantages would make U.S. citizens or residents 
attractive recruiting targets for foreign terrorist groups hoping to 
conduct operations within the United States. But for the same 
operational reasons, any U.S. persons who do become terrorists would 
present a significant counterterrorist challenge even without having 
any affiliation with al-Qaeda or some other foreign group.
    A common and reassuring observation among those who have studied 
the problem of home-grown terrorism is that the United States is less 
vulnerable than most European countries to terrorism and other 
political violence committed by their own Muslim populations. The 
reason is that American Muslims are better integrated and less 
ghettoized than their counterparts in Europe. This is true, but 
ghettoes are not a necessity, and community integration is not a 
foolproof safeguard, when it comes to individuals or small groups 
committing what still can be significant acts of violence.
    Incidents to date cannot be described as yet adding up to a 
significant home-grown Islamist terrorist problem in the United States. 
But episodes like the shooting at Fort Hood suggest the possibility of 
more, and the sort of reasons and motivations that could make for more. 
And this does not depend on any recruiting successes or training 
activity by the likes of al-Qaeda.
                           methods of attack
    The security measures implemented since 9/11 increase the 
importance of lone individuals or very small groups that may emerge 
within the United States, relative to the importance of an established 
foreign terrorist organization such as al-Qaeda. Those security 
measures have made it harder to conduct a terrorist spectacular like 9/
11, where the resources, sophistication, and experience of such an 
organization would be most relevant. The hardening of the civil 
aviation system in the United States has made it much more difficult to 
conduct an attack a lot like 9/11. This leaves the many more mundane 
but less rectifiable vulnerabilities in American society. A disturbing 
and unavoidable fact is that just about anyone can stage a shoot-'em-up 
in any of countless public places in the United States. This is low-
tech and unsophisticated, but it can cause enough carnage to make a 
significant impact on the American consciousness. The likely shape of 
future terrorist methods of attack in the United States is best 
represented by what happened at Fort Hood, or by the ``D.C. sniper'' 
episode that traumatized the National capital area a few years ago, an 
episode about which we were reminded when the principal perpetrator was 
executed just last week.
                effects of military operations overseas
    All of this has implications for the effect, if any, of our own 
counterterrorist and military operations overseas on the level of 
threat to the U.S. homeland. Some such operations, including the firing 
of missiles from unmanned aircraft at individual targets in northwest 
Pakistan and elsewhere, have contributed to the eroding of the 
organizational capabilities of foreign terrorist groups and 
specifically al-Qaeda. To the extent those capabilities are relevant to 
possible attacks on the U.S. homeland--and for the reasons I mentioned, 
that relevance is limited--they may have some positive effect on 
homeland security. Kinetic operations do not diminish the ideological 
and inspirational role that now is probably the more important 
contribution that al-Qaeda makes to threats to American security.
    The larger use of U.S. military force now under discussion is, of 
course, the counterinsurgency in Afghanistan. Pursuing and expanding 
that counterinsurgency would not reduce the threat of terrorist attack 
to the U.S. homeland. The people we are fighting--Afghans loosely 
grouped under the label ``Taliban''--have no interest in the United 
States except insofar as we are in Afghanistan and frustrating their 
objectives there. Their sometime allies in al-Qaeda do not require a 
piece of physical territory to conceive, plan, prepare, and conduct 
terrorist operations against western interests. To the extent the group 
finds a physical haven useful, even a successful counterinsurgency in 
line with General McChrystal's strategy would still leave such havens 
available to the group in Pakistan, in the unsecured portions of 
Afghanistan, or elsewhere.
    Meanwhile the use of military force can exacerbate the terrorist 
threat by stoking anger against the United States and U.S. policies, 
largely because of the inevitable collateral damage. The anger 
increases the likelihood of people sympathizing with or supporting 
anti-U.S. terrorism, and in some cases joining or initiating such 
terrorism themselves. We already have seen such angry anti-Americanism 
in response to some of the missile strikes, and on a larger scale in 
response to military operations on the ground in Afghanistan, where 
previously dominant pro-American opinion has in large part dissipated. 
An expansion of the counterinsurgency would add resentment against the 
United States as a perceived occupying power to the anger over 
collateral damage.
    We also have already seen such sentiments translate into anti-U.S. 
violence in Afghanistan in the form of many Afghans who have no liking 
for Taliban ideology or rule but have taken up arms to oppose American 
forces. Similar sentiments can have similar effects far from the field 
of battle, including in the U.S. homeland. Of all the elements of 
terrorism and counterterrorism that move easily across continents and 
oceans in a globalized world, emotion-stoking news about controversial 
policies and events is one of the easiest to move. However one chooses 
to characterize what Nidal Hasan did at Fort Hood, his reported 
sentiments about America's current overseas wars and how these 
sentiments figured into the action he took illustrate a phenomenon that 
we should not be surprised to see more of, albeit in different forms.
    The indirect effects of anger and resentment are inherently more 
difficult to gauge or even to perceive than the direct effects of 
military action in seizing or securing territory or in killing 
individual operatives. But this does not mean they are less important 
in affecting terrorist threats. They are the main reason that in my 
judgment, expansion and extension of the counterinsurgency in 
Afghanistan is more likely to increase than to decrease the probability 
that Americans inside the United States will fall victim to terrorism 
in the years ahead.

    Ms. Harman. Thank you very much.
    Dr. Crenshaw.

    STATEMENT OF MARTHA CRENSHAW, SENIOR FELLOW, CENTER FOR 
  INTERNATIONAL SECURITY AND COOPERATION, STANFORD UNIVERSITY

    Ms. Crenshaw. Thank you. Thank you Chair Harman, 
Representative King and Members of the subcommittee.
    I do not disagree profoundly with what my colleagues have 
said so far. I think that al-Qaeda, although seriously weakened 
in the past 8 years, poses a serious threat, and that our 
policies in Afghanistan and Pakistan are going to impact the 
future of that threat in ways that we do not really know, but 
that we need to watch very carefully.
    I base my judgment on two things. One is the organizational 
capacity of al-Qaeda, and the other is their ideological 
intentions and their belief system. It is a very simple 
dichotomy, but still, I think, quite real.
    Now, in terms of organization, again, I do not disagree 
with my colleagues, but I will point to what I regard as the 
all-important middle level of organization in al-Qaeda. 
Sometimes we treat it as though it were al-Qaeda Central at the 
top, which may indeed be growing in influence again, and then 
rank-and-file recruits or volunteers at the bottom, when I see 
an intermediate level as critically important
    That intermediate level, to my mind, has two components. 
One is radical clerics, who, in the cases in Britain, in 
Denmark, and the United States now, have encouraged, if not 
recruited, individuals who have a predisposition to be 
recruited, which is all too important.
    Second, we do not want to neglect the role of organizations 
in conflict zones, as in Yemen, Somalia--in Pakistan, Lashkar-
e-Taiba, who are real, functioning, structured organizations to 
which these individuals can make contact, as well.
    So, it is not just al-Qaeda Central in terms of a 
leadership and a structured organization, and arenas for 
training camps. So, the training camps do not have to be in 
Afghanistan-Pakistan. If they are elsewhere, they will probably 
be even harder for us to locate, if they are in Yemen or in 
Somalia.
    In terms of the intention behind terrorism, as the Chair 
noted, it is a very important thing to al-Qaeda to be able to 
recruit in the West. It is a legitimizing device. It may not 
necessarily matter to them whether they are actually directing 
what people are doing, or whether they are simply inspiring 
them to be imitators of what they have already seen.
    If there are attacks within the West, al-Qaeda at some 
level will take credit for it. So, they will say there is a 
connection, even if we do not think--or our intelligence 
agencies do not think--that there was a connection.
    If you look at the writings of Abu Musab al-Suri, who was 
an important ideologue in al-Qaeda, who was captured by our 
forces in 2005, he lays out a very clear plan for recruiting in 
the West and points out that, under Western pressure, the only 
sensible way to keep the al-Qaeda movement going is to 
encourage small cells to be created in the West.
    Now, in looking at this kind of relationship, one thing I 
want to stress, I think, is that, in my view al-Qaeda is not 
what we would call a social movement. It is often referred to 
as a movement, and in many ways it is. But to me, just calling 
it a movement implies that it has a lot of grassroots support.
    I regard it as more of a transnational secret society 
composed of clandestine cells around the world. It has very 
little above-ground support. It has some, but it is very small. 
So, I think we need to keep in mind that the number of people 
who are attracted to al-Qaeda or who belong to its organized 
branches, wherever they are, is actually a very, very small 
number of people.
    It may be growing. It is very, very hard for us to tell, 
because, as I put in my testimony, we cannot count the number 
of people at recruiting stations. We do not know how many 
people might be susceptible to recruitment, how many people are 
out there. But it is important to remember that it is a very 
small number of people.
    In terms of the intention behind the use of violence 
against the West, I will just point to one encouraging 
dimension, although I have to say that I am not completely 
encouraged, and that is divisions within the ranks of al-Qaeda 
ideologues.
    During the past 8 years, there have been more figures who 
were affiliated with al-Qaeda breaking ranks and saying they 
disapprove, either of attacks on civilians or attacks on Muslim 
civilians, with that qualification.
    I myself am not sure how much influence these clerics have. 
In most cases they are clerics or leaders. I am not sure how 
many people find them credible. But I think we can regard that 
as sort of a source of very cautious optimism that there may be 
some splits and fissures within the overall movement that may 
give us an opportunity for making inroads into the movement and 
into halting this process of recruitment.
    However, in my talks with people in counterterrorism 
agencies in other democratic governments, they feel that the 
sorts of young people who are susceptible to radicalization do 
not feel that the more moderate figures are at all credible or 
exciting or interesting. So, they do not really have much sway 
with the kind of people that we are particularly concerned 
about.
    So, on that note I will stop, and thank you again.
    [The statement of Dr. Crenshaw follows:]
                 Prepared Statement of Martha Crenshaw
                           November 19, 2009
    Chairwoman Harman, Ranking Member McCaul, and distinguished Members 
of the subcommittee, thank you for the opportunity to testify before 
you today to discuss al-Qaeda's threat to the homeland.
    Although al-Qaeda is substantially weaker than it was on the eve of 
the 9/11 attacks, it still poses an active and immediate threat to the 
United States and its allies. Uncertainty about future policy toward 
Afghanistan and Pakistan and its effect on homeland security heightens 
concern.
    I have studied terrorism for almost 40 years, and if we look at the 
big picture of all terrorism over time, most terrorism is local. 
Targets, audiences, and grievances are local, and for most groups 
attacking close to home is simpler and easier. Since the late 1960s, 
anti-American groups have spent most of their time and effort on their 
home territory, and it was rare for them even to target Americans or 
American interests abroad, much less mount attacks in the United 
States. Al-Qaeda is the exception. Transnational reach is central to 
its identity, and it is organized to carry out this mission. As 
American military strikes pressure the core leadership in Pakistan, 
those remaining may grow more desperate to activate supporters in the 
United States in order to continue the struggle. Local militants may be 
motivated to act in order to avoid failure and the collapse of the 
cause. It is likely that al-Qaeda's leaders have given up the idea of a 
repetition of the destructiveness of 
9/11 and would settle for less spectacular but lethal attacks on 
civilian targets.
    My statement analyzes al-Qaeda's current organizational capacity 
and evaluates its intentions toward the United States.
                           what is al-qaeda?
    Recent estimates place al-Qaeda's strength at around 100 members in 
Afghanistan and 300 in Pakistan. Others simply say that the numbers are 
``below 2,000.'' These varying estimates are misleading, perhaps even 
meaningless. Al-Qaeda has always been an organization that depended as 
much on local initiative as on top-down direction, and in the aftermath 
of 9/11 it has dispersed even more. Its complex organizational 
structure is something between a centralized hierarchy and a 
decentralized flat network. It is a flexible and adaptable organization 
that has survived well beyond the lifespan of most other terrorist 
organizations.
    In my view, al-Qaeda is not a global social movement. I offer this 
observation because defining it as such implies that it is a popular 
movement with extensive grass-roots support in its constituent 
communities. I do not think this is the case. Instead it is a web of 
overlapping conspiracies, often piggy-backing on local conflicts and 
grievances. In many ways it is a transnational secret society. 
Clandestine cells are the norm, not rallies and demonstrations pulling 
in large numbers of supporters. It cannot mobilize the vast majority of 
Muslims. Its options are limited.
    The structure of the organization can be analyzed on three levels:
    (1) al-Qaeda central in Pakistan;
    (2) the second tier leadership;
    (3) cells (or micro-cells) and individuals.
    Al-Qaeda central.--Looking first at ``al-Qaeda central,'' the key 
issue is leadership and leadership potential. Although the leadership 
does not control the worldwide organization in a strict sense, it 
provides ideological direction and guidance as well as some resources 
(mainly assistance with training and funding). Bin Laden and Zawahiri 
possess symbolic value. Locally al-Qaeda is a disruptive player in 
Pakistani politics.
    The leadership is reduced in number and many key personnel have 
been captured or killed (although the fate of the targets of drone 
attacks in Pakistan is not always easy to ascertain). There can be no 
doubt that their loss is a serious blow to the organization. It is 
demoralizing as well as debilitating. In addition communication is 
impeded. Under pressure it is harder to communicate both within the 
leadership group and to supporters outside, although it is clearly not 
impossible since al-Qaeda's media outlet is still operating and video 
and audiotapes appear regularly.
    The key questions on which experts disagree are: Can the removed 
leaders be replaced? How deep is the bench? If there is no effective 
succession, can the core leadership continue to function under 
pressure? Can it continue to communicate with the rest of the 
organization and with the world, which is essential to survival as an 
agent of jihad? Is the top leadership essential to mounting terrorist 
attacks against and in the West?
    An immediate policy question is whether the al-Qaeda leadership can 
survive without a base in Pakistan or Afghanistan. Could it be 
transplanted to another conflict zone that could provide safe haven, 
such as Somalia or Yemen? Al-Qaeda has been rooted in the Afghanistan-
Pakistan theatre for almost 30 years. Rebuilding a base in a new 
location would be problematic, perhaps impossible.
    But does al-Qaeda need a territorial location at all? One reason 
for needing a base may be to maintain training camps rather than ensure 
the functioning of the core leadership. Although experts disagree on 
this issue (and in fact on most al-Qaeda-related issues), my judgment 
is that hands-on training is important to the tactical success of 
terrorist attacks. Expertise in handling explosives, tradecraft, and 
operational security are learned through experience, not the internet 
or training manuals.
    Another critical question is the nature of the relationships 
between al-Qaeda central and diverse Taliban factions in both 
Afghanistan and Pakistan. Would we predict alliances or competition? 
Here again expert opinions differ.
    Some analysts predict that if the United States and NATO withdraw, 
the Taliban will take over in Afghanistan, and al-Qaeda will return to 
its pre-9/11 home and pose the same deadly threat as before. Pakistan 
would be likely to make an accommodation with both the Taliban and al-
Qaeda. The threat to the American homeland would be grave.
    Other observers think that there is no coherent ``Taliban'' but a 
mix of local interests, that such a weak coalition is not likely to 
secure control of the country, and that even if a faction of the 
Taliban did take power (especially the Mullah Omar faction), it would 
not necessarily be sympathetic to al-Qaeda and in fact might be 
hostile. After all, it was al-Qaeda's recklessness that led to the 
Taliban's defeat and loss of power in 2001. Some analysts in this camp 
expect that pragmatic elements of the Taliban would be willing to 
compromise with the Afghan government.
    Another consideration is that al-Qaeda may not need Afghanistan at 
all, as long as it can maintain its base in Pakistan. How will American 
policy choices in Afghanistan affect the Pakistani government's 
willingness and ability to confront al-Qaeda? Apparently al-Qaeda has a 
closer relationship with the Pakistani Taliban than with the Afghani 
Taliban, and it is the Pakistani Taliban that has committed spectacular 
acts of terrorism (perhaps learned from or assisted by al-Qaeda) and 
provoked a military offensive from the Pakistani government. Some 
commentators argue that we should leave the eradication of al-Qaeda to 
the Pakistani military and intelligence services. Others think that 
Pakistan will not do the job, especially considering the high levels of 
anti-Americanism among the public. In terms of a threat to the 
homeland, we should recall that the Pakistani Taliban has exhibited a 
capacity for organizing terrorism outside of the region (e.g., the 2008 
Barcelona plot).
    The second tier leadership.--It is a mistake to conceive of al-
Qaeda as composed of a core leadership at the top and self-generated or 
self-radicalized volunteers who respond independently to the call for 
jihad at the bottom. The intermediate level of leadership is equally 
important to radicalization, recruitment, and the logistics of mounting 
attacks. Understanding how this structure functions sheds light on the 
question of whether al-Qaeda's momentum can be sustained without 
central guidance from Pakistan or elsewhere.
    (1) The first type of interface consists of affiliated or merged 
local organizations with their own interests in specific conflict 
zones, such as Lashkar-e-Taiba, al-Qaeda in the Islamic Maghreb (AQIM), 
the Moroccan Islamic Combatant Group, the revived al-Qaeda in the 
Arabian Peninsula operating in Yemen, or Al Shabab in Somalia. They are 
either branches of the central organization or associates that have 
adopted the al-Qaeda brand or label. In return al-Qaeda central has 
acquired transnational reach as well as the all important image of a 
force that mobilizes Muslims around the world. Some of these alliances 
seem to be fragile, as local affiliates discover the high price of 
joining. An important part of the al-Qaeda brand is suicide attacks on 
civilian targets, including Muslims. This requirement has apparently 
provoked dissension in AQIM and in the Libyan Islamic Fighting Group. 
Nevertheless, a number of attacks and plots in the West can be linked 
to these groups. They also pose real threats to political stability in 
Yemen and Somalia.
    (2) The second midlevel interface is composed of local leaders in 
Western countries, often Muslim clerics (e.g., at the Finsbury Park 
Mosque in London, which drew adherents from across Europe) but 
including other activists as well. They are public figures, not covert 
operatives. It is difficult to trace their direct connections to al-
Qaeda central, but clearly they have adopted its principles and 
beliefs. They provide more than just inspiration by calling for jihad 
against the West. They also organize young men in summer camps, sports 
clubs, and other venues for socialization, indoctrination, and 
recruitment. In the years since 9/11 and particularly since the London 
bombings in July 2005, Western governments have arrested or deported 
radical clerics and closed down mosques (or assisted in a transfer of 
control). Recent reports, however, conclude that imprisoned clerics in 
Britain have maintained contact with their followers outside and 
continue to issue fatwas in support of jihad. Similarly, in the United 
States Sheikh Abdel-Rahman communicated from prison with his followers 
in Egypt.
    Recruits and volunteers.--Our concern here is with transnational 
recruitment in the West rather than recruitment in conflict theatres 
abroad. Many of the cells in the West, however small, had a leader with 
connections to higher organizational levels, whether at home or 
overseas (usually Pakistan in the case of the United Kingdom).
    From what little we know, recruitment processes at the individual 
level vary. Typically it is difficult to establish whether there was a 
connection between a local militant and al-Qaeda and to determine who 
took the initiative in making contact. As seen in the 9/11 conspiracy, 
the process combines both volunteering and active recruiting by 
activists or organizers--it is bottom-up and top-down at the same time. 
This modus operandi has characterized al-Qaeda from the beginning. The 
Mohammed Atta group travelled to Pakistan by accident and circumstance, 
where Khalid Shaikh Mohammed discovered that they were the perfect 
instruments for his suicide hijacking plan. It still appears to be the 
case that some individuals in the West initially intend to travel 
abroad to fight on behalf of Muslims, but when they arrive al-Qaeda 
leaders persuade them to return home to attack their own societies.
    Key factors in recruitment include family and social ties in the 
local setting as well as to a country of origin, access to training 
camps (now primarily in Pakistan), and collective encouragement as well 
as contacts in institutions such as mosques or even sports centers. 
Prisons also serve as venues for recruitment (there is no evidence of 
this in the United States but the European experience suggests that it 
is common). Social network theory is often used to map out these 
relationships (usually through friendship and kinship networks). The 
internet also contributes to radicalization and recruitment, but 
operational control probably requires face-to-face contact. A recruiter 
may be in touch with an individual who then reaches out to other 
individuals to form a conspiracy, or a recruiter may enlist an already-
formed group that appears promising. Recruits have included first-
generation, second-generation, and even third-generation immigrants as 
well as converts. Some are citizens, but some are illegal. Some are 
well-assimilated, well-educated, upwardly mobile, and prosperous, while 
others are rootless and marginal in a socio-economic sense. Some have 
criminal backgrounds, some do not. Most participants in these 
conspiracies are male, and in Western Europe most were initially 
recruited in their country of residence.
    The radicalization process can apparently occur very quickly. 
Individuals can rapidly move from a secular lifestyle to extreme 
religiosity and then to the endorsement of violence. It is difficult to 
predict who will take this path.
    The case of Major Hasan and the Fort Hood shootings is a tragic 
reminder that it is possible for a lone individual to take action 
unassisted (and that skill with explosives is not necessary). We do not 
yet know enough to be sure that he acted on his own initiative or what 
his motivations were, but he was in contact with Anwar al-Aulaqi, a 
radical cleric formerly preaching at a Northern Virginia mosque, 
connected to the 9/11 hijackers, and now residing in Yemen. Aulaqi, who 
is thought to be linked to al-Qaeda, praised Hasan as a hero after the 
Fort Hood shootings.
    An important public policy question, and yet another point of 
dispute among experts, is whether or not non-violent Islamist-oriented 
organizations serve as transmission belts for recruitment into 
underground cells or instead as safety valves that divert potential 
extremists away from the path to terrorism. Hizb ut-Tahrir, which seeks 
the establishment of an Islamic caliphate and is estimated to have a 
million members worldwide, is a prominent case in point. Western 
governments have taken different positions on this issue, some banning 
these organizations and others not (usually on grounds of freedom of 
speech and association).
    Possibly these associations are neither effective substitutes for 
violence nor conveyor belts because committed extremists are impatient 
with endless philosophical discussion and eager for action. They are 
not attracted to moderate Islamism and do not find its representatives 
persuasive or credible. This rejection is an impediment to a policy 
that tries to end terrorism by encouraging moderates within the same 
general community of belief to take a stand against violent extremism. 
However, it is important to remember that those who use violence are a 
tiny minority.
                        what does al-qaeda want?
    Considering the diversity of perspectives at different levels 
within the organization, it is not surprising that al-Qaeda's 
motivations are not necessarily consistent or uniform. There are many 
currents of jihadist thought. It is also not surprising that the goals 
of the top leadership level would be couched in vague terms, reflecting 
their conception of a minimum common denominator. Little concrete 
attention has been paid to a positive program for the future, although 
al-Qaeda has grand aspirations for the eventual establishment of a 
caliphate.
    Our interest is in those beliefs and objectives that drive attacks 
on the United States, especially attacks on or within the homeland. 
What is the rationale now for attacking the United States? Is it likely 
to be altered as circumstances and American policies change? For 
example, would there be a shift if American military forces were 
withdrawn from both Iraq and Afghanistan?
    The narrative promoted by the top leadership--reflected in 
statements by Bin Laden, Zawahiri, al-Suri, and other spokesmen--is 
that violent jihad is an obligatory response to encroachments on Muslim 
lands by the ``Crusaders and Jews.'' Jihad is considered fundamentally 
defensive and thus essential as long as Islam is in danger. It is also 
an obligation at the level of the individual, as authorized by al-
Qaeda. The framing of terrorism as a necessary defense against 
aggression toward the umma (the Muslim community, not al-Qaeda itself) 
and as an individual duty is coupled with another justification. Al-
Qaeda justifies terrorism as a way of making citizens of the West 
suffer as Muslims have suffered--to establish equivalence or 
reciprocity by bringing the war home. Communications (audio and video) 
emphasize the suffering of civilians at the hands of the United States 
and its allies fighting in Pakistan and Afghanistan. Palestinian 
victims of Israel are also cited in this context.
    These messages constitute powerful and urgent emotional appeals to 
defend one's community and one's faith and to take revenge on their 
persecutors. Martyrdom is the highest expression of commitment (and 
since the war in Iraq it has become an al-Qaeda trademark, although 
suicide attacks began in the early 1980s). There is no indication of a 
change in the view expressed by al-Qaeda theoretician Abu Mus'ab al-
Suri in 2005: The lesson of history is that terrorism is the most 
useful political method to compel an opponent to surrender to one's 
will.
    Demonstrating that Muslims in the West can be mobilized in the 
service of these collective aims is a legitimizing device for al-Qaeda. 
Sponsoring terrorist attacks in the West is an ideological imperative, 
essential to the al-Qaeda identity and image. Promoting terrorism in 
the West is all the more important to their reputation because 
challenging the United States in the Middle East has failed (e.g., in 
Iraq), although Zawahiri boasts that al-Qaeda has won in every 
conflict. The al-Qaeda challenge to Saudi Arabia also collapsed, and 
Egypt is a lost cause.
    Decentralization is also a practical response to pressure. 
Following the logic that most terrorism is local, instigating local 
cells to attack the enemy at home is the most effective way of reaching 
the American homeland. Mounting an attack from abroad is logistically 
difficult and has not worked well (consider the examples of Richard 
Reid and subsequently the liquid explosives plot). Al-Suri explicitly 
acknowledged that dispersion into small units was the most effective 
way of maintaining the organization and continuing the struggle in face 
of the effectiveness of post-9/11 counterterrorism.
    In asking whether changes in American policy might produce 
corresponding changes in al-Qaeda's attitudes, it is instructive to 
look at al-Qaeda and sympathizers' reactions to President Obama's 
speech in Cairo last June calling for a new beginning. Judging by 
Zawahiri's subsequent speeches and the reactions in on-line forums and 
blogs that take the al-Qaeda line, President Obama's initiative was 
interpreted as a threat. Zawahiri was scornful of Muslims who were 
deceived into welcoming a dialogue or partnership with the West. He 
appealed to nationalism in both Egypt and Pakistan (interestingly, 
speaking in English to a Pakistani audience and referring frequently to 
the military). Jihadist circles also seemed to recognize and to be 
alarmed by Muslims' positive reception of the Obama administration. 
They are aware of declining public support for terrorism against 
civilians. One theme of jihadist discourse is that Obama's deceptive 
sweet-talk and cajoling cannot be permitted to weaken Muslim hatred for 
the United States. Another theme is that American policy will not 
change--the new approach renouncing the war on terror is mere rhetoric, 
and the United States will continue to kill Muslims and to support 
Israel. An article comparing Presidents Obama and Bush concluded that 
Muslims should ``beware of the cunning Satan, for he is more dangerous 
than the foolish Satan.'' A common view expressed in these discussions 
is that jihadists must act because of the cowardice of leaders in 
Muslim countries (Egypt and Saudi Arabia in particular), including the 
ulema or clergy. On-line comments also remind audiences that there has 
not been a successful attack against a target in the West since 2005. 
This criticism of their passivity presents a challenge for al-Qaeda 
loyalists.
    Looking to the future, Al-Qaeda will attempt to exploit whatever 
decision the administration makes about Afghanistan. If troop levels 
are increased to implement the counter-insurgency strategy, al-Qaeda 
can point to continued American assaults on innocent Muslims. Civilian 
casualties are inevitable, no matter how careful and precise American 
forces try to be. If the United States withdraws, al-Qaeda will take 
credit.
    Is there Muslim opposition to the al-Qaeda worldview? It is the 
case that some prominent Muslim clerics have taken a strong stand 
against al-Qaeda's doctrine (particularly in Saudi Arabia and Egypt). 
Their critique is unlikely to moderate the views of major al-Qaeda 
leaders, who distrust the orthodox clergy as much as they distrust 
moderate Muslim political leaders. Delegitimizing the jihadist message 
might discourage potential recruits who have not yet moved to violence, 
but it is almost impossible to know. It is not as though we can count 
the numbers at recruiting stations. In addition al-Qaeda, and the 
Taliban as well, typically deflect internal criticism of bomb attacks 
that kill civilians by evoking conspiracy theories: Instead they charge 
that the perpetrators are the CIA, the Mossad, Pakistani intelligence, 
or other shadowy agents of the enemy.
                               conclusion
    Al-Qaeda is declining but still dangerous. It is by no means a mass 
popular movement but it is a complex, transnational, and multi-layered 
organization with both clandestine and above-ground elements. It has 
proved durable and persistent. The determination of its leaders to 
attack the United States is undiminished and might strengthen as the 
organization is threatened, but another attack on the scale of 
9/11 is unlikely.

    Ms. Harman. Thank you, Dr. Crenshaw.
    General Barno.

 STATEMENT OF DAVID W. BARNO (RET.), DIRECTOR, NEAR EAST SOUTH 
ASIA CENTER FOR STRATEGIC STUDIES, NATIONAL DEFENSE UNIVERSITY, 
                     DEPARTMENT OF DEFENSE

    General Barno. Madame Chair and Ranking Member, Mr. King, 
thanks very much for the opportunity to testify today.
    I would note upfront that, although I am a Government 
employee and I direct the Near East South Asia Center at the 
National Defense University, all my remarks and my testimony 
today are my personal outlook and opinions and do not represent 
the U.S. Government or National Defense University.
    I would generally agree with most of what I have heard so 
far from my colleagues. I think, perhaps, one thematic that all 
of us will sound in one way or another today is the danger that 
al-Qaeda still represents. I think the risk of us 
underestimating that danger, in my opinion, at least, is 
perhaps one of the things we have to be particularly vigilant 
against here in the coming years.
    The events of 9/11 reminded us in no uncertain terms of the 
cost of unpreparedness in what we now characterize as homeland 
security. As we all know, just 8 years ago, the Nation suffered 
its most serious blow ever in a single-day attack by an outside 
attacker on the United States. Nearly 3,000 American lives were 
lost here in Washington, in New York, and in Pennsylvania.
    That is a day that has changed all of our lives forever, 
and we cannot forget how that came about, and we cannot be 
swayed from ensuring that that never occurs again.
    I would also note that, in today's environment, I think the 
emergence of a violent, ideologically driven, non-state actor 
such as al-Qaeda has really radically altered the calculus of 
U.S. National defense.
    I come from a military background. I grew up in a world 
where we faced a Cold War threat from the Soviet Union, the 
Warsaw Pact in Europe. We are in a completely different world 
today. I am not sure all of our institutions in looking at the 
defense of the country have caught up.
    Conventional military organizations today provide little 
defensive or deterrent power against this particular adversary. 
Law enforcement organizations are demonstrating a lot of 
difficulty in dealing with these deadly threats, as well, and 
doing them in a timely manner before attacks have occurred--
despite the great successes we have seen here in the United 
States over the last 8 years.
    In reality, of course, our adversary only has to be lucky 
once, where our defensive measures have to be lucky 100 percent 
of the time, which is a very tough standard to meet.
    I think the ambiguity in this world of non-state threats 
argues for both a defensive, law enforcement, criminal 
enterprise, but also an offensive set of tools. Defensive 
measures we are all familiar with include hardening of 
potential targets, red teaming our vulnerabilities, and even 
increased vigilance by our citizens, as well as law 
enforcement.
    I think these measures are necessary, but they are not 
fully sufficient. Offensive measures to keep terrorist 
organizations and other malign non-state actors off-balance and 
under pressure are simply essential.
    This is a war. Our enemy views this as a war.
    We sometimes view it as a war, sometimes view it as a 
myriad combination of other issues--perhaps rightfully so. But 
our enemy views this very much as a war and a multi-
generational war. We have to respond to that with the degree of 
seriousness that it requires.
    Defeating al-Qaeda, in my view, will require a long-term 
American presence in support of our friends in South and 
Central Asia--especially now, Afghanistan and Pakistan. I think 
that our presence there will ultimately not be realized by 
large numbers of U.S. and NATO troops, as is the case today, 
but our long-term presence should be characterized by American 
partnership and intelligence, law enforcement, border control, 
and counterterrorism forces across the region.
    I am not sure that day will ever arrive, however, unless we 
can defeat the ascendency of the Taliban threat today.
    I would view that the Taliban relationship with al-Qaeda 
today is symbiotic. Sometimes we like to disaggregate these 
two, but I very much see the two of these having grown together 
in many ways.
    I would describe it as the al-Qaeda fish today in the 
Afghanistan-Pakistan border region swim inside of a Taliban sea 
in that arena, and that our fight has to be able to take on 
both of those issues.
    I think a long-term partnership with our friends in the 
region is absolutely essential for our enduring security of the 
United States. We cannot simply walk away. We cannot withdraw. 
We cannot disengage from that region and expect our Nation to 
be safe here at home.
    I would close by saying that I share the belief of many 
others that only our consistent and persistent military and 
intelligence pressure on al-Qaeda--in many ways enabled by our 
local presence there in the Afghanistan-Pakistan region--those 
factors have come together to help prevent a large-scale al-
Qaeda attack on the United States in these last 8 years.
    There are many other components of this defense, and there 
are other components of the offense. But I do have concern that 
our disconnection and our potential disengagement that some are 
viewing in this region could be very debilitating to our long-
term security and works against our interests. Al-Qaeda is 
still a deadly, threatening, and powerful organization.
    Thanks, and I look forward to your questions.
    [The statement of General Barno follows:]
                  Prepared Statement of David W. Barno
                           November 19, 2009
    I am here today in my personal capacity. My remarks reflect my 
personal opinions, and do not represent the opinions or position of the 
Department of Defense or the Near East South Asia Regional Center of 
which I am the Director.
    The events of 9/11 reminded us in no uncertain terms of the costs 
of unpreparedness in what we now term ``homeland security.'' Just 8 
years ago, our Nation suffered its most serious blow ever delivered by 
a single outside attacker on the continental United States--an attack 
that cost nearly 3,000 American lives. All of our lives were changed 
forever, and none of us have ever looked at the defense of the United 
States in quite the same way since.
    Prior to 9/11, the United States had no Department of Homeland 
Security, and the very idea of defending against threats within the 
United States fell on the one side to local, State, and National 
policing agencies, up to and including the FBI--and on the other side 
toward the Department of Defense in its domestic ``Military Support to 
Civil Authorities'' responsibilities--most commonly disaster 
assistance. The very idea of an organized foreign group such as al-
Qaeda possessing the will and wherewithal to conduct a major attack 
within the United States was simply not fully comprehended.
    Our model for dealing with threats to the United States in some 
ways was organized on two very different lines: Threats from 
individuals were addressed as ``rule of law'' issues and dealt with 
largely as legal responses to criminal enterprises. Organizations aimed 
against these threats were by and large law enforcement agencies, to 
include international organizations such as Interpol. In the world 
before 
9/11, terrorism largely fell into this model--events ranging from the 
first attack on the World Trade Center in 1993 to the Khobar towers 
attacks in 1996 to the attack on the USS Cole in 2000. On the other 
hand, threats from nation-states were seen in the purview of 
international law and international bodies such as the United Nations 
and deterred and responded to through largely diplomatic, and if 
required, ultimately military means. Almost every nation worldwide 
maintained both intelligence and military organizations purpose-built 
to defend against these familiar threats. Armies, navies, and air 
forces could be found in all but the poorest countries, and 
intelligence organizations aimed at neighbors and internal security 
threats in most countries around the globe.
    Non-state actors such as al-Qaeda have forever changed this threat 
model--and the world's law enforcement, military, and intelligence 
agencies have continued to scramble to keep up with this new threat 
profile. It has become common to measure threat over the last few 
centuries by the amount of destructive power than can be wrought by ten 
men (or women). During the 1800s and early 1900s, this potential might 
play out most often in assassinations of key figures creating strategic 
turmoil--the lone Sarajevo gunman's impact on the start of World War I 
as a case in point. The ready availability of mass destructive 
technology in the aftermath of World War II began to change that 
equation. The world-changing impact of the internet--both for the 
unfettered spread of the most deadly technologies as well as 
ideological radicalization--is now unmatched by any previous 
development in human history in giving vast destructive power to even a 
few committed individuals.
    In today's environment, the emergence of violent, ideologically 
driven non-state actors such as al-Qaeda have radically altered the 
calculus of National defense. Conventional military organizations hold 
little defensive or deterrent power in this model. Law enforcement 
organizations are similarly demonstrating grave difficulties in 
addressing these deadly threats--or doing so in a timely manner, before 
attacks have occurred. Moreover, the adversary only has to be lucky 
once--our defensive and preventive measures have to be effective--100% 
of the time to prevent potential catastrophe.
    Non-state actors present the dual challenge of attribution and 
accountability for their acts. The perpetrators of the Khobar Towers 
attack in Saudi Arabia remained obscure for years, effectively dulling 
any prospects for a timely and effective response. When a weapon of 
mass destruction detonates in today's world, who will be held 
responsible? How many month or years will it take to establish 
attribution to a certain group or individual? To then hold that 
perpetrator accountable? And are there any prospects for any type of 
deterrence in a non-state threat world where there is no ``smoking 
gun'' for sometimes years thereafter?
    This ambiguity inherent in a world of non-state threats--and a 
world where states employ the tactics of non-state anonymity to carry 
out campaigns of terrorism or irregular warfare--argues for both a 
defensive and an offensive set of tools. Defensive measures will 
include hardening of potential targets, ``red teaming'' of 
vulnerabilities, and even increased vigilance by citizens as well as 
law enforcement--all necessary but not fully sufficient. Offensive 
measures to keep terrorist organizations and other malign non-state 
actors off-balance and under pressure are simply essential.
    One can argue persuasively that one contributing factor to al-
Qaeda's success in the most deadly surprise attack on the United States 
homeland in our history was its unmolested safe haven in Afghanistan in 
the years leading up to 9/11. This sanctuary can re-emerge in the same 
region today, and not require an entire nation-state in order to return 
to its former prominence and lethality. The Afghan-Pakistan border 
areas are the nexus of al-Qaeda today and cannot be allowed to resume 
their former position as a quiet backwater for al-Qaeda to plot 
destruction on the United States and our allies unchallenged by western 
arms.
    Defeating al-Qaeda in my view will require a long-term American 
presence in support of Afghanistan and its key neighbor Pakistan. That 
presence will ultimately not be realized by large numbers of U.S. and 
NATO troops as is the case today, but by American presence and 
partnership in intelligence, law enforcement, border control, and 
counter-terrorism forces across the region. However, in my judgment 
this day will never arrive unless the currently ascendant Taliban 
threat is defeated and our actual and potential allies across the 
region buttressed by our success. We must characterize our ``end game'' 
in the region not as withdrawal, but as a long-term partnership with 
like-minded nations across this key arc of concern--nations united in 
the face of a growing menace from non-state terrorists that include al-
Qaeda. I see the relationship between the Taliban and al-Qaeda as 
absolutely symbiotic: The al-Qaeda fish today swim in a Taliban sea in 
Afghanistan, Pakistan, and in the border region writ large. Any 
strategy that the United States undertakes which is focused first and 
foremost on ``exit'' as the strategy rather than on ``success'' in 
meeting policy objectives is a strategy doomed to fail. This is a 
paradox--a focus on ``exit'' undermines the very strategy it seeks to 
achieve.
    I share the belief with many others that only our consistent and 
persistent military and intelligence pressure on al-Qaeda enabled by 
our local presence and contacts have prevented al-Qaeda from striking 
the United States once again in the last 8 years. Returning to an 
``offshore'' posture to fight this threat returns us to the wholly 
ineffective posture of the 1990s, and removes the immense pressure felt 
by al-Qaeda over the last 8 years of what has truly been a ``war'' on 
terrorism waged by a broad collection of nations around the globe. This 
fight must continue, and it will be made immeasurably harder if it is 
no longer enabled by the close-up presence of American capabilities in 
Afghanistan and shared efforts across the border in Pakistan.
    Thank you for this opportunity to appear before the subcommittee, 
and I look forward to hearing your questions.

    Ms. Harman. Thank you very much.
    Thanks to all of the witnesses for excellent testimony and 
for confining yourselves to 5 minutes.
    Given the number of Members who have showed up to ask you 
questions, we are going to have a very, very full morning.
    In accordance with committee rules, I will recognize 
Members who were present at the start of the hearing based on 
seniority on the subcommittee, alternating between Majority and 
Minority. Those Members coming in later will be recognized in 
their order of arrival.
    I also would ask unanimous consent for Ms. Jackson Lee of 
Texas, and Mr. Lungren of California, to sit on the dais for 
the purposes of questioning witnesses during the hearing today. 
They are not Members of our subcommittee, but they are Members 
of the full committee.
    Hearing no objection, so ordered.
    Let me now recognize myself for 5 minutes.
    First, to Dr. Pillar and General Barno, thank you for your 
service. Both of you have spent years and years away from your 
families--one in the intelligence area and the other in our 
military, keeping our country safe. We recognize it and salute 
you both. I think that your service now is even more valuable, 
because of your service then.
    I understand, General Barno, you are still serving, but you 
were on active duty in the Middle East and in Vietnam. I think 
that was you.
    General Barno. Too young.
    Ms. Harman. Too young. Excuse me. I am not too young. Mr. 
King is not too young.
    But at any rate, thank you for your service.
    Thank you, Dr. Pillar, for focusing on the fact that both 
our intelligence community and our law enforcement agencies 
have played a major role these past 8 years in keeping our 
country safe. I think we all recognize that. We should also all 
recognize that some actions that Congress has taken have 
helped, as well.
    Mr. Bergen is nodding.
    So, for all the bad stories about Congress, there have been 
some good stories, as well.
    Having said that, as I said in my opening remarks, I think 
al-Qaeda remains potent. My first question to you is, if we are 
able, or one of our allies is able, to capture or kill Osama 
bin Laden and/or Ayman al-Zawahiri, will that make a difference 
to al-Qaeda's potency?
    Any of you feel free to answer.
    Mr. Pillar. I will take the first crack at it.
    The largest contribution that bin Laden and Zawahiri make 
today is not in the operational command and control of 
terrorist operations, but rather as ideological lodestar, of 
sorts. To do that, you can do it whether you are dead or alive.
    So, the question you raised, Madame Chair, is one that the 
specialists have debated among themselves a long time. I know 
when I was in Government, we debated that amongst ourselves a 
long time.
    I think it is a wash, quite frankly. There would be a kind 
of martyrdom aspect to it, depending on how they were killed, 
if they were killed. Then, of course, if they were captured, we 
would face the same issue that has become a point of 
controversy here with regard to KSM and the matter about which 
you and Mr. King had your dialogue.
    So, on balance, I do not think it works strongly one way or 
the other.
    Ms. Harman. Other comments, Mr. Bergen.
    Mr. Bergen. I am going to disagree slightly with Dr. 
Pillar. You know, if von Stauffenberg had killed Hitler in 1944 
with the bomb under the conference room table, World War II 
would have ended a year earlier. Not to compare these two 
conflicts, but there are some people who change history, and 
bin Laden changed history.
    You cannot explain why the French were in Moscow in 1812 
without Napoleon. You cannot explain 9/11 or al-Qaeda without 
bin Laden and Ayman al-Zawahiri. Khalid Sheikh Mohammed may be 
operationally important, but he has no ideas.
    So, and the point--the problem is that bin Laden and Ayman 
al-Zawahiri keep influencing what happens. It is not just 
commanders intent to kill Westerners and to kill Jews. But 
every time they release an audiotape or videotape, they are 
often very specific instructions.
    For instance, bin Laden has been talking about Somalia a 
great deal recently. So has Ayman al-Zawahiri. That is one of 
the reasons foreign jihadis are flocking to Somalia. Bin Laden 
said, we are going to respond to the Danish cartoons. That is 
one of the reasons that the Danish embassy was attacked in 
Islamabad. There are many other examples.
    So, I think that they are important in a way that--you 
know, much more important than anybody else who has been 
captured or killed so far.
    Ms. Harman. Thank you.
    Dr. Crenshaw.
    Ms. Crenshaw. I think that they both have enormous symbolic 
power over the movement, and I think Zawahiri now even more so 
than bin Laden, because they have not seen any videotapes from 
bin Laden for quite a long time. My colleagues may know 
exactly.
    Al-Zawahiri issues a stream of videos that I think are 
enormously influential, and that what we have to understand is 
the role of communications within the movement, that 
communications practically define the organization of al-Qaeda.
    So, if you cut off those sources of communication, I think 
that it would have an impact on the movement. Although I think 
that Dr. Pillar is also right that there might be a sense of 
desperation in the rank-and-file in the lower levels, if the 
top leaders were removed--if they believed that they were 
removed.
    Remember the role of conspiracy theories. They might not 
even believe it, if we said that we had killed them.
    Ms. Harman. General Barno.
    General Barno. I would just add, I would agree with my last 
colleague here, that leadership matters, and these two provide 
inspirational leadership to this organization. Take them off 
the table, how does this organization perpetuate itself 5 years 
from now, 10 years from now? Is it going to have that degree of 
energy?
    I think they make a difference, and I think they remain 
extremely important for----
    Ms. Harman. Well, thank you.
    I am going to respect my own 5 minutes, and I assume other 
Members will. I would just say that I tend to agree, that they 
at least have symbolic importance, and there is a 
communications value to them.
    When we were in Pakistan and Afghanistan last week, of 
course we inquired about whether there are, will be additional 
opportunities to find these people. Hopefully, there will be in 
the near future. I think it is quite important.
    I would now yield 5 minutes to Mr. King.
    Mr. King. Thank you, Madame Chair.
    I have two questions, and I will just address them to the 
entire panel. So, I will ask the questions up front. They will 
be on the issues of Muslim leadership in the United States, and 
also the point that Dr. Pillar was raising about antagonizing a 
population within the country by our foreign policy.
    On the issue of Muslim leadership in the United States, the 
most recent case, Zazi. One of the only imams in New York who 
was cooperating with the New York Police Department was brought 
in on the Zazi case. He turned out to be a double agent. He 
took the information and tipped off Zazi.
    With the Vinas case on Long Island, which we discussed 
before, Vinas went to a mosque that he wanted to engage in 
jihad. He was told, we do not do jihad here. But they never 
went to the police or the FBI and told them what Vinas was 
interested in doing.
    My understanding of what is going on in Minneapolis, there 
is very little cooperation from the Muslim leadership in the 
Somali investigations.
    There was the largest mosque on Long Island in New York, 
3,000 members, for months after 9/11. These were doctors, 
professionals. One of them was head of medicine at a medical 
center, was saying it was the Jews, the CIA, and the FBI that 
probably attacked Ground Zero.
    These are not isolated cases. As I say, I bring up the most 
recent ones, Zazi and Vinas--especially Zazi.
    So, I would ask you to address what you think is the impact 
of the leadership--or am I giving a distorted view of the 
leadership--and what the extent of cooperation is.
    On the other issue, Dr. Pillar, you raised about 
antagonizing a population by our foreign policy, and whether or 
not we agree on any particular war or not, let me just go back 
to the 1990s, where we had, again, the two open trials in the 
Southern District on the first World Trade Center attack and 
also on the blind sheikh.
    The only two times we committed troops to war--and I 
supported both engagements--was in Bosnia and Kosovo, both 
times on behalf of Muslims and against Christians. They were 
religious wars between Orthodox Christians and Muslims.
    We came down on the side of Muslims. There was no oil for 
us. There was no territorial gain for us. Yet, during that 
entire time we saw Khobar Towers, we saw the African embassies, 
we saw the USS Cole and the preparations for 9/11--long before 
any of the policies that we are talking about now went into 
effect.
    When we talk about Iraq and Afghanistan, if you will, even 
if we leave those wars aside, we are going to be engaged in 
long struggles in the struggle with al-Qaeda, whether it is in 
those countries or somewhere else, there will always be 
collateral damage. That collateral damage will always be 
highlighted by the enemy.
    During World War II, there was enormous collateral damage 
in Germany and Italy, but the German-American population and 
the Italian-American population did not carry out actions 
against the American government.
    So, I am asking, is this unique? Is this different? How do 
we--if we are going to say, well, because Major Hasan did not 
support our policy in Afghanistan, we have to be looking out 
for those type of cases in the future.
    Are we doing that to be more aggressive? Or are we doing it 
to be apologetic?
    So, I would put those questions out. Some leading 
questions, I agree, but I will just ask among the four 
panelists.
    Ms. Harman. Dr. Pillar.
    Mr. Pillar. Well, I will just address the second one, Mr. 
King. Someone like Peter Bergen and my other colleagues know 
much more about the first.
    We are not talking about a single cause here, or resentment 
against the United States or the inspiration to commit violence 
against U.S. interests.
    I certainly did not intend to suggest that the Iraq war or 
the Afghanistan war, or any other conflict, is the make-or-
break difference with regard to whether people will commit such 
outrageous acts against us.
    Rather than kind of glowing in history, I think we ought to 
look at the direct evidence in Afghanistan today. Afghanistan 
had been a welcome oasis of goodwill toward the United States. 
The opinion polls showed our numbers were up in the 80 percent, 
something like that--a rarity in the Muslim world.
    That has in large part dissipated. You can look at 
different polls and interpret things a bit differently, but we 
are nowhere near as much considered a friend as we were some 
time ago.
    Quite clearly, this has to do with the, as you correctly 
say, inevitable collateral damage. No matter how skillfully our 
military operations are planned and executed, it is going to 
happen.
    We also have the phenomenon of being viewed as occupiers in 
Afghanistan, which, among other things, has caused a lot of 
people to take up arms against us there who have no sympathy or 
support at for the extreme Taliban ideology, although we often 
call them Taliban in describing the enemy.
    Those are the kinds of sentiments that can very easily go 
across oceans and across continents to affect our security here 
in the United States.
    Mr. King. Mr. Bergen.
    General.
    General Barno. Let me, if I could, just take issue with 
that. I would disagree from my own experience in Afghanistan, 
having been back there several times since, and from my 
interactions with Afghans here in Washington, to include a 
former Afghan minister of interior, who is probably going to be 
returning to provide some help to the government there.
    There are a diversity of views on the U.S. and the NATO 
forces in Afghanistan. But even today, after having been there 
for 8 years, the opinion polls show that there are over 50 
percent levels of support for the military effort in 
Afghanistan.
    The more common refrain that still is the case today--and 
it varies by region in Afghanistan--but the more common refrain 
and the more common fear is, the question that I heard 
regularly, ``You Americans are not going to abandon us again, 
are you?''
    There is a greater fear of us leaving, and leaving them 
exposed to the depredations of the Taliban, which they know 
very well from the 1990s, than there is of us being an 
overwhelming portion of the country.
    We are still a relatively modest footprint in Afghanistan. 
In the northern half of the country, we have a virtually 
minimal footprint across that whole part of the country, and 
that area is quite favorable towards the NATO presence and is 
really not impacted by the insurgency to anything like the 
degree that the south is.
    I think we have to be very careful about broad 
generalizations about being unpopular in Afghanistan and being 
viewed as occupiers in Afghanistan. I did not find that the 
case. I have not seen that to be the case with the Afghans I 
interact with.
    There are areas--and I do tend to agree with David 
Kilcullen's idea of the ``accidental guerilla,'' that you can 
go into valleys and be fought, simply because you are in a 
valley. There is no question about that. But that should not 
be--I do not think it can be extended to a broader perception 
across all Afghanistan.
    Ms. Harman. Very briefly, Dr. Crenshaw, please.
    Ms. Crenshaw. I would just address Representative King's 
first question. The Islamic faith is very decentralized, and 
the leadership of mosques is a very localized sort of thing.
    So, you know, as the British discovered, sometimes radical 
elements move in and take over mosques. Hard to tell what their 
religious credentials are or what kind of support they actually 
have in the communities.
    Ms. Harman. Thank you.
    Mr. King, your time has expired.
    I would just observe that, from my travels to the region--
and I have been to Afghanistan twice this year--one of the 
reasons for disaffection with Americans by the Afghan 
population is the rampant levels of corruption of the Afghan 
government, and their perception that we should be doing--we, 
America--should be doing more about that.
    I now yield 5 minutes to Ms. Kirkpatrick of Arizona.
    Ms. Kirkpatrick. Thank you, Madame Chair.
    My question is to all of the panelists.
    More often than not, when there is a discussion of 
homegrown threat, it centers around the possibility of American 
residents joining up with international organizations like al-
Qaeda. However, we all recognize that there are also many 
militant organizations and individuals in the United States who 
would like to cause harm to our country for reasons that have 
nothing to do with our foreign policy.
    In your views, which poses a greater threat to our 
security? Is it Americans linking themselves to global 
terrorist organizations, or Americans getting involved with 
organizations that happen to be purely domestic?
    Mr. Bergen. I think the threat is clearly from people 
linking up with international organizations. I mean, 
organizations, by definition, are more effective than 
individuals.
    So, if you can--I think it was very important for Dr. 
Crenshaw to mention that Lashkar-e-Taiba, which is a group that 
previously had a rather provincial view of the world, really 
focusing on the Kashmiri conflict, with its attacks in Mumbai, 
and now with its plan to attack the Danish newspaper is--and 
also targeting in Mumbai Westerners and Jews--that there are 
not just one group which has a global threat potential with al-
Qaeda, but also groups like Lashkar-e-Taiba, and now al-
Shabaab, which is the Somali group that has identified itself 
as part of al-Qaeda.
    So, I think, you know, clearly, the biggest threat is when 
an individual attaches himself to an organization. That is 
really the problem.
    Mr. Pillar. If I could take a slightly different 
perspective.
    There is not a bevy of domestic terrorist groups to which 
people can attach themselves, by way of comparison. So, almost 
by definition, if we are worrying about somebody getting in 
cahoots with a group, it is a foreign group that we are talking 
about.
    You have to ask where the initiative comes from. I address 
this in my statement. If someone does reach out to a group, is 
it the individual reaching out to the group? Or is it the group 
reaching out to the individual?
    In the Zazi case, for example, it appears that he was 
radicalized during his days selling coffee and pastries from a 
cart in Lower Manhattan. The training camp business in Pakistan 
came after that. After all, why would he take--why would he be 
motivated to go thousands of miles away to a camp, if he was 
not already radicalized?
    Another point I would like to make is, you know, the kinds 
of operations that we ought to be most worried about, because 
of the domestic security measures that we have taken and the 
things that the Chair referred to before. A terrorist 
spectacular on the likes of--on the scale of 9/11, or even less 
than 9/11, is a lot harder to do than it was 8 years ago.
    That is the kind of operation where the skills and 
sophistication of a foreign group may be most relevant.
    I think what we need to worry about more are the kinds of 
things we saw with Fort Hood, with the D.C. sniper, who was 
executed in Virginia last week--low-tech things where the 
skills that can be imparted by a foreign group are simply less 
relevant. But that is where we are inherently, unavoidably more 
vulnerable, given the way our society is structured.
    Ms. Kirkpatrick. Did anyone else want to comment on that 
question?
    General Barno. I would, I think, agree with all the 
panelists, that the connection to a foreign terrorist group, 
particularly al-Qaeda, is much more dangerous in the long term 
to the United States than the individual, you know, connections 
here.
    Despite what we have seen--and we have seen examples such 
as Timothy McVeigh and the impact that had. That was in some 
ways a one-off case. Whereas, we do know we have a global 
network led by al-Qaeda that is trying to enable these attacks. 
The very fact that that exists, I think, makes that a much more 
dangerous prospect.
    Ms. Kirkpatrick. It is interesting that you mentioned 
Timothy McVeigh, because my district in Arizona borders the 
county where he lived and hatched the idea. So, of course it is 
a concern to us in that part of Arizona.
    Thank you.
    Ms. Harman. Thank you very much.
    Mr. Souder, of Indiana, is now recognized for 5 minutes.
    Mr. Souder. First, let me thank you for this hearing. It is 
very informative.
    A brief comment on Afghanistan. Our popularity probably 
will drop as we try to tackle the drug lords and the warlords, 
if they thought they were going to get off scot-free, and then 
we start to crack down or do some collateral damage, we are 
likely to go down a little bit in popularity among their 
supporters, because one of the challenges is how to get the 
regional leadership. Then, when you get the regional leadership 
in, many of them were corrupted for a variety of reasons.
    As we actually try to get order, you are not going to 
probably hit 80 percent in the polls in any country.
    I have a core question here. In my district, because 
unemployment was low before it got really high, because we are 
a heavily manufacturing area, we had lots of refugees. That in 
addition to the--early on we had refugees because of Fort 
Wayne, Indiana's proximity to Detroit, the manufacturing, a lot 
of Arab immigrants historically, at engineering colleges, and 
so on--people when the shah fell, the Iranians, lots of other 
clusters.
    Now, for example, we have a community of about 1,500 
Bosnians with related gang questions with that. I have the 
largest Burmese dissident population, four different subgroups.
    But in addition to that, for example, I found out as we 
went into Iraq, we have a Sunni Iraqi mosque. The Shia and the 
Kurds would not meet with them in my office, because they felt 
some of the defectors who left early were actually plants, and 
they were there to target some of the Detroit leaders and 
leaders of the Shia in my region.
    The New York Times published an open source, which then led 
the group to disappear, but I have lots of Yemenis who have 
been followed in my region. I have somewhere around 1,500 
Pakistanis. Then, the newest thing is, we are one of the 
largest areas for Darfurian refugees from Somalia, Chad, and 
East Africa.
    Now, many of them came to America because they have been 
persecuted. Many of them are more patriotic than many of the 
people who are long-time U.S. citizens, because they love the 
country, they like the freedom. They escaped the tyranny. They 
are our best sources.
    At the same time, when we see what happened in Fort Hood, 
we are pretty good at figuring out afterwards. But as I 
understood Dr. Crenshaw to say in our other briefing that I got 
upset about, but I heard you say before, that when you track 
people in London who were going to Pakistan, the difficult 
thing is how to figure out those who were a possible risk, and 
those who are not risks.
    How do we do this? I mean, it is one thing to go to 
Facebook afterwards, one thing to try to put it together.
    How do we prevent, rather than explain after we are dead?
    It is one of the biggest challenges, and I would like your 
insights on that.
    Then, also, if you could throw in why we have not seen IED. 
We are seeing lots of--we are talking about low-tech, high-tech 
organization. That does not seem to be that terribly 
sophisticated. Yet, we are not seeing them, and it is certainly 
worse.
    Ms. Crenshaw. Well, those are both two very good questions, 
Representative Souder. You point out quite accurately that 
there are large numbers of refugees and immigrants with ties to 
home countries, with experience in conflict zones, with social 
networks. The vast majority, of course, have nothing to do with 
al-Qaeda or any desire to use violence whatsoever.
    How do you pinpoint those people who might become radicals, 
who might become extremists in the sense of wishing to use 
violence?
    I do not have a clear or good answer for you, because I 
think when we look at the individuals in question, and going 
beyond the 25 so far in the court, there is so much disparity 
in terms of socio-economic background, in terms of ethnic 
origin in the American case. It is really extremely difficult. 
We certainly need to know quite a lot more about it.
    As to why we have not seen more low-tech-type attacks in 
the United States, whether we call them IEDs, or simply 
building very unsophisticated explosives--or shootings, like 
Major Hasan--I have to honestly say I do not have a good answer 
for that either, except to be relieved that we have not seen 
more, but to be afraid that there is a certain contagion 
effect.
    When someone breaks a barrier--although we have had 
shootings before--it is hard to tell when that tipping point 
comes when someone does something that others look at and say, 
``I could do that,'' and begin to want to imitate it.
    So, we need to learn more about what creates that kind of 
opening of the doors, a kind of release in that sense. I do not 
think we know enough about it yet.
    Mr. Bergen. On the prevent question, the Zazi case is a 
very good case to look at, because, I mean, before 9/11, Zazi 
would have killed probably dozens of Americans. I mean, he 
was--if the allegation is correct, he was building hydrogen 
peroxide bombs, the same bombs that were used in the 7/7 
attacks in London, which killed 52 commuters.
    You know, Bruce Hoffman describes it as potentially Mumbai 
on the Hudson. But because of the post-9/11 things that were in 
place, his travel to Pakistan I think flagged him as 
potentially interesting. There was clearly surveillance of his 
e-mail accounts, because if you look at the indictment, it said 
the e-mails that he was sending were a very important part of 
the case against him.
    So, that is sort of really a good-news story about the 
American Government doing what it is supposed to do.
    General Barno. I think I would just add to that, as well, 
that it might be worth--we tend to do postmortems on failures. 
We ought to be doing some postmortems on our successes to 
identify what were the key factors in concert that allowed us 
to find out these perpetrators before they actually launched 
their attacks, and reinforce how important those are to be able 
to sustain or to be able to be expanded.
    Because we know what now works in about four or five, six 
or seven cases here in the United States over the last year. We 
ought to pick that apart with as much attention as we are going 
to give to the failures that we have, I think.
    Ms. Harman. Thank you. The gentleman's time has expired.
    Mr. Souder, I think you have the most ethnically diverse 
district on the planet.
    I would also just observe, consistent with the answers of 
the witnesses, that this subcommittee has been trying for 
several years to understand as precisely as we can what turns 
somebody with radical views, which are protected by the First 
Amendment to our Constitution, into someone who wants to 
undertake violent acts, which are crimes.
    Understanding that nexus and trying to intervene just at 
that point, so that we are not preventing free thought, has 
been a huge challenge.
    We have not figured it out yet, either, Dr. Crenshaw, but 
we are going to keep trying.
    I now yield to Mr. Carney, of Pennsylvania, for 5 minutes.
    Mr. Carney. Thank you, Madame Chair.
    I really wanted to thank this very distinguished panel. I 
mean, it does not get much better, obviously.
    I have written down, I think, about 80 questions I have. I 
do not have time for them. I do have several, and it kind of 
ties on with what my colleague, Mr. Souder, was saying, and the 
Chair.
    I would kind of like to go back to 9/11. Mr. Bergen and Dr. 
Pillar, this is probably for you first.
    Have we fully investigated, and do you think we fully 
understand, the domestic links to 9/11? I mean, how did 19 
guys, half of which did not speak English, manage to pull off 
something of that magnitude here without inside help?
    Mr. Bergen. The only comment I have on that is, this was 
the largest criminal investigation in history. I think they 
interviewed 182,000 people. They followed up 500,000 leads.
    I mean, you know, it is hard to prove negatives. But I 
think, to the extent that this was the best investigation of a 
crime in history, and I think the 9/11 Commission report speaks 
for itself, anybody who helped the 9/11 hijackers did so 
unwittingly, it seems.
    Mr. Pillar. I would agree totally with that.
    Mr. Carney. How much has sort of the wall, the bureaucratic 
wall between FBI, for example, and the CIA, DIA, all the 
others, how much has this helped, hurt? You know, we certainly 
have our constitutional protections we want to, obviously, 
adhere to. But are we safer?
    Mr. Bergen. No doubt. I mean, the National Counterterrorism 
Center, which I think is a very highly functional entity--and 
Dr. Pillar, I am sure, can address more of that. But I think 
the wall has come down.
    Mr. Pillar. The wall was always exaggerated. I have to 
disagree on this one.
    After the trauma of 9/11, we as a country were seeking 
catharsis in various ways. One of those ways was to reorganize. 
That is their favorite way of seeking satisfaction here in 
Washington.
    The NCTC to which Peter Bergen refers is doing outstanding 
work. I think some of the objective--much of the objective--of 
trying to get people from the agencies you mentioned to sit 
literally around the same table, they are doing very good work. 
But at least as many questions were raised, quite frankly, by 
the December 2004 reorganization.
    You still have counterterrorist components at the FBI, at 
the CIA. Well-intentioned efforts to try to break down 
interagency barriers may have inadvertently increased some of 
the difficulty in communicating between people within the same 
agency, particularly between those who are working explicitly 
on counterterrorist topics or investigations, and those, such 
as at the CIA, who cover other topics that do not have a 
counterterrorist label, but are very pertinent to emergent 
threats--people who can follow opposition movements in other 
countries, for example, that may morph into the next terrorist 
threat to hit us.
    We have not improved that. So, no, I do not think the 
reorganization made us safer.
    Mr. Carney. Well, has the mindset of the analysts and the 
people doing the work changed? Are they thinking a little more, 
for lack of a better term, I would say, creatively about how 
our enemy intends to attack us?
    Mr. Pillar. I think there was creative thinking going on 
for quite some time. What we did not have----
    Mr. Carney. Oh, I don't know. You know, the intelligence 
community a number of years ago, before 9/11, actually said 
exactly the opposite.
    Mr. Pillar. Well, I will need more than a minute and 15 
seconds to respond to that.
    The huge thing to change on September 12, if you will, in 
2001, was political will to do all those sorts of things 
overseas and domestically--and the Chair has already referred 
to some of them--that we did not have before. That includes the 
particular concerns that have been the subject of previous 
questions, the sorts of investigative powers we have 
domestically, as well the more aggressive offensive measures 
overseas.
    It wasn't that there was not creative thinking. It was that 
it takes an outrage like 9/11 to change the political 
circumstances in this country in order to make these things 
possible.
    Mr. Carney. Do we have an adequate number of linguists in 
the intelligence agencies? You know, how are thinking about--
how much mirror imaging was going on in terms of analysis and 
that sort of thing?
    Mr. Pillar. There are never an adequate number of 
linguists. Fifty years from now, no matter what you on this 
committee and people on the intelligence committees do, we will 
still be talking then--those of us who are still alive then--
about not having enough language skills.
    Mr. Carney. Well, we will see you in 50 years, and we will 
have that chat.
    My time is up, but I have got a bunch of more questions.
    Ms. Harman. Well, if there is the political will, we will 
have a second round of questions, because this panel is 
fascinating.
    I would just observe again, based on last week, we have a 
lot more linguists than we had a year ago, or 2 years ago. We 
are doing better.
    I now yield 5 minutes to Mr. Broun, of Georgia.
    Mr. Broun. Thank you, Chair Harman.
    All of us have been extremely concerned about 
radicalization here in this country. We have had a lot of talks 
and effort and time spent on that.
    But going back to what Mr. King was asking about, the Zazi 
case, and even with what Mr. Souder and all of us are really 
concerned about.
    We have recently seen that there are Americans with the 
will and means to go, for example, to the FATA region. They go 
for training. They come back to the United States to carry out 
their terrorist attacks on our own soil.
    This cannot be an easy task. It is not like going to London 
on vacation. The intelligence community would love to have that 
same kind of access.
    How are these Americans doing it? Do we know who they are 
talking to and how they are connecting with terrorist groups 
overseas? They do not just go knock on the door and say, ``Here 
I am, I want to be trained,'' I am sure. They have got to have 
some access.
    What do we know? What do we need to know? How do we get 
there? How do we stop this pipeline of American citizens or 
American radicalized, even folks who have come here as 
immigrants, from getting engaged in this kind of training, 
getting engaged in carrying out these terrorists attacks in 
America?
    To the panel.
    Dr. Crenshaw.
    Ms. Crenshaw. It is a very murky area, as you point out, 
who is going to go, and then what happens when they get there. 
I guess I will just point what I think are some impediments. My 
colleagues would know better than I.
    But if they are going to another country, then we may have 
some of our own intelligence assets there. But we are going to 
be largely dependent on the government there to tell us what is 
going on. I know from the British experience that there were a 
lot of problems with lack of coordination between them and the 
Pakistanis, leading Britain now to send a unit of MI-5 to 
Pakistan to try to figure out what is going on when people get 
there.
    I would imagine that when you go to other conflict zones--
Somalia, where there is not anybody even there, I would think, 
who could track what is going on--it would be extremely 
difficult to see what people do once they get there.
    I think it is a key question as to, how would they know 
where to go and who to go to, unless there had been prior 
contact. If they are going with the intention of training and 
fighting jihad where Muslims are threatened and they are 
fighting, and then they change their minds, they are, in 
effect, converted now to terrorists who want to go back to 
their home countries and attack, we do not quite know how that 
happens, whether they went with that intention or whether they 
changed their minds along the way.
    We certainly need to know more.
    Mr. Pillar. If I could just expand on Martha's last 
thought. Much of the initial impetus, Mr. Broun, for people 
going over into these areas and getting mixed up with people of 
that ilk, has to do with armed conflicts, in which they did not 
start out with the intention of becoming terrorists to come 
back and attack targets in their own homeland.
    The jihad against the Soviets throughout the 1980s, did 
this in spades--and we are still seeing the effect of it 
today--with jihadists of multiple nationalities going there to 
free what they consider the Muslim homeland against the Soviet 
invader. Then, some of them--only a small percentage, but some 
of them--got wrapped up into these other things that worry us 
today.
    Mr. Bergen. If I could make a comment about that, because I 
think the American Government has got a pretty good handle on 
that. Whether it is the Zazi case we told you about, Headley, 
you know, clearly, e-mail intercepts were helpful in detecting 
these people and what they were doing.
    But I would also raise the issue of Westerners in general 
traveling to these training camps, because, you know, because 
of the visa waiver program, if you are a European passport 
holder, it is relatively easy to come back.
    The Associated Press had an interesting story just 
recently, where the estimate was about 150 Westerners who have 
been in the tribal regions recently. For instance, I just did a 
count of 10 German citizens, different German citizens, all of 
whom appear in jihadist videotapes in the last year or so.
    So, the concern should not be just about Americans. It 
should also be about the Westerners who are going.
    In the British experience, 400,000 British citizens go to 
Pakistan every year for completely legitimate reasons. If 0.01 
percent of them are going for jihadi training, you have still 
got a lot, 40 people.
    So that is kind of the problem. It should not be just 
focused on the American dimension.
    Mr. Broun. My time is about up, but I just want to indicate 
that this, to me, is just a very strong wakeup call that we 
need to have human intelligence on the ground, in those areas, 
in the FATA region, as well as other regions. We have to have 
those people. I am real concerned that we do not have that kind 
of intelligence.
    I yield back.
    Ms. Harman [continuing]. Western travel documents--that was 
interesting--in the camps in Pakistan and elsewhere poses a 
great threat to our security, and even more of a threat to the 
security in Britain, whereas Mr. Bergen pointed out, there are 
so many Britons of Pakistani origin who travel to Pakistan for 
month-long vacations every single year.
    So, I appreciate your raising that. It is something that is 
critically important. It is very important to the subcommittee.
    We are going to have votes in about 15 minutes, I am told. 
I want to get to everyone. If we do not, we will come back and 
make sure we do get to everyone.
    The order of questions at this point is Himes, who I am 
going to call on right now. Mr. Pascrell will be next. There is 
no one on that side, and then Mr. Green.
    Mr. Himes.
    Mr. Himes. Thank you, Madame Chair. Thank you to the panel 
for appearing before us.
    Representing southern Connecticut as I do, we were 
particularly involved with the events of 9/11. So I think this 
topic is one that is both critical to all of us, but 
particularly hits home to an awful lot of people that I 
represent.
    I have got two questions that are kind of in the, ``Are we 
doing enough?'' category.
    With respect to what we as a Government can do to advance 
what seem to be positive numbers within the American Muslim 
community, the revulsion against extremism, are we doing 
enough? What else could we as a Government do to tamp down the 
likelihood that out of that community there would be radical 
elements emerging?
    General Barno. I think one of the interesting things--I 
will jump in here--that came immediately in the aftermath of 
the attack at Fort Hood, was elements of the American Muslim 
community coming out and condemning those killings 
unequivocally within--literally within hours on the first day.
    I think that is a positive indicator. But to your point, 
are we doing enough, I think that this is also an opportunity 
to do a reappraisal of where we are collectively in our law 
enforcement and Government relations with the American Muslim 
community to re-emphasize the importance of leadership among 
American Muslims on the unacceptability of this outlook, and 
really to condemn the very outlook that ostensibly Major Hasan 
had about U.S. forces overseas, and the legitimacy of attacks 
against those forces.
    So, I think that message cannot be given enough. I think 
that the Government and our law enforcement agencies have to be 
actively involved in having that conversation with the 
leadership in the U.S. Muslim community.
    Ms. Crenshaw. I would add that it is critically important 
for local law authorities and local political authorities to 
understand who the influential people are in the Muslim 
community.
    Because I know at least in the British case, there has been 
criticism that the people that the police and other authorities 
chose to deal with did not really speak for anybody. The 
Government thought they did, but the local communities did not 
think they did. So, that made their efforts misplaced, and 
probably more damaging.
    So, you have got to know something about who would be the 
people who would shape opinion in the community.
    Mr. Himes. Thank you.
    So, a similar question. One of the disheartening things in 
the last 8 years has been the silence, frankly, of global 
leaders, moderate political leaders of Islamic nations, 
clerics, senior clerics.
    Do we have the standing and the ability to urge, encourage, 
incent global Islamic leaders to take a more aggressive stance 
against their own extremists? If we do have that standing and 
capability, what is the path? How do we do it?
    Mr. Bergen. I think the short answer is ``no'' to that, 
because of the kiss of death problem. You know, it is happening 
anyway, is the good news. Dr. Crenshaw referred to this in her 
testimony.
    Salman al-Oadah, who is a very extreme Saudi cleric, who 
has been in prison for 7 years--an old friend of bin Laden--has 
publicly rejected bin Laden on a very, you know, on television 
programs throughout the Middle East. This is incredibly 
important, because this is a guy that bin Laden, by his own 
account, said was the reason that he started attacking the 
United States, because of his fatwas.
    So, there are many other examples of clerics, significant 
militant clerics, or former friends of bin Laden, who have 
actually turned against him publicly. So, they are really 
losing the war of ideas.
    If you look at support for suicide bombing in the Islamic 
world, in Pakistan it has dropped from 33 percent to 5 percent 
in the last several years. It has cratered in Indonesia, in 
Jordan, and Saudi Arabia.
    So, at the end of the day, that is important, but it is not 
sufficient, because Brigate Rosse, Baader-Meinhof Gang in the 
1970s had zero public support, but were still able to continue 
to be very violent groups.
    But clearly, they are losing the war of ideas. I think that 
our role in that is just to let it happen and be cognizant of 
it, but not to try to control it.
    Mr. Pillar. I agree with that. The only thing that would 
give us better standing, to take a somewhat more active role, 
would be--well, we are talking about the indirect effects of 
countless perceptions of countless policies around the world. 
That goes far beyond the immediate war of ideas.
    But I agree with Peter, that the kiss of death problem 
would make our efforts counterproductive for the most part.
    Mr. Himes. Thank you. I yield back.
    Ms. Harman. Thank you very much.
    Mr. Pascrell.
    Mr. Pascrell. Thank you, Madame Chair, and thank you for 
allowing us to sit in.
    The one thing I am concerned about--and Fort Hood was 
brought up--one thing I am concerned about, since I have been 
called an apologist at times, is that we do not simply try to 
do the politically correct thing, because Dr. Hasan is Muslim, 
to me, means he should be treated no differently than anybody 
else. I think that would be wrong. I do not think that is 
happening yet--either way.
    The fact that he is Muslim is secondary to the fact that he 
killed Americans. It looks like he did anyway.
    Having said that, Eric Hoffer wrote an interesting book 40 
years ago, 45 years ago, ``The True Believer,'' where he went 
into the very depths of what makes folks go off the edge and 
turn away from their humanistic qualities and become basic 
animals, and to kill their brothers and sisters. What idealism 
would bring someone to that end? We could learn a lot about it.
    These are many times individual efforts, which become 
subordinate perhaps to organizations that folks attach 
themselves to.
    I live in probably an interesting district also. It is 
probably one of the most diverse districts in the United 
States, and it is the second-largest Muslim population in the 
country. I have a large Jewish population in my district, too. 
But I was a mayor previous to this life, and you learn to deal 
with those things on a day-to-day basis. In fact, that becomes 
your most important and significant problem.
    So, when I hear statements like, as you said, Mr. Bergen, 
being complacent with American Muslims, what do you mean by 
that?
    Mr. Bergen. I think because of the fact that American 
Muslims are better educated than most Americans, have higher 
incomes and do not live in ghettos, unlike their European 
Muslim counterparts, I think the assumption was this was not 
going to be a big problem in the United States. I think that 
assumption is still largely a fair one.
    But the Zazi case, the Vinas case, the Fort Dix case--these 
cases all show that there is a constellation of terrorism cases 
with a jihadi flavor that suggest that we should not be 
completely complacent about this problem existing here.
    You know, I grew up in the United Kingdom, and so, clearly, 
the United Kingdom faces a very severe threat----
    Mr. Pascrell. I am not talking about being complacent with, 
just in general. But I go back to your words. You talked about 
complacency with Muslims.
    Don't you think that that brings a lot of folks over the 
edge that would wonder that we paint with a wide brush? Doesn't 
this do more damage than good?
    Would you disagree with me on that?
    Mr. Bergen. I may have inartfully worded my comments, for 
which I apologize.
    Mr. Pascrell. Fine. Thank you.
    Now, what do you mean, General Barno, by ``increased 
vigilance by citizens''? How do you define that?
    General Barno. I think that is something that occurred 
across the Nation after 9/11. I think that that continues to be 
the case today.
    I have not dug through each of these cases over the last 
year that have resulted in arrests of prospective terrorists in 
the United States. But in many of them, there were indications 
that ordinary Americans at checkout counters and other places 
were being more alert than they would have been, perhaps, 10 
years ago to the prospects of something not quite right going 
on.
    I think that is something we have to continue to encourage. 
I mean, that should not be aimed at any particular group, but 
the idea that there is a terrorist threat to the United States, 
inside the United States, is important for all of us to 
continue today. We did not have that outlook 10 years ago.
    Mr. Pascrell. I want to continue on your point.
    I have found no greater vigilance in the general population 
than with the Muslim community. In fact, in my district, which 
the FBI has been deeply involved in, I get glowing reports 
about the cooperation they are getting from imams.
    I think, again, to paint with a wide brush those--what you 
folks have been talking about, brings us closer to the abyss, 
where we should be trying to reach out--and they should be 
trying to reach out. This is a two-way street here.
    The silence of the political leaders does not exist in my 
community. I think I have no better source than the FBI. I take 
their word for it.
    I just want to conclude by this, Madame Chair.
    This is dicey, serious, dangerous business. Until we get 
beyond our words, including myself, and deal with the fact that 
we need strong espionage efforts--I am not afraid to use that 
word, by the way. For some reason it has been wiped off our 
dictionaries. It is not politically correct.
    I think it is absolutely necessary that we have strong 
espionage efforts to uncover anyone who is plotting in any way 
against this country. We need those efforts not only here, but 
we also need them primarily, of course, in other countries, 
which are many times the source of our own problems.
    I hope that Fort Hood will be a clarifier. I really do. I 
think that some good can come out of this great tragedy.
    Thank you.
    Ms. Harman. Thank you, Mr. Pascrell. Let me just comment on 
what you said.
    I think Congress has acted--I said this earlier--since 9/11 
to strengthen the tools available to our intelligence community 
and our law enforcement community.
    Maybe you are right, Dr. Pillar, that our first instinct is 
to reorganize. So, I plead guilty. But we have done more than 
just reorganize. I think those tools are yielding information 
that is crucial, specifically in the Zazi and Headley cases.
    I now yield 5 minutes to Mr. Green, followed by Ms. Jackson 
Lee. I think that that will have given every Member a chance to 
ask questions. Votes are coming, and that would mean that our 
witnesses would have to wait around for a long while. So, I 
would like to suggest that following these two sets of 
questions, we adjourn the hearing.
    Is there any objection to that?
    Thank you.
    Mr. Green.
    Mr. Green. Thank you, Madame Chair. I absolutely concur 
with you. I thank the witnesses for appearing. I thank you and 
the Ranking Member for this hearing.
    I would like to focus our attention ever so slightly on 
Pakistan. It is my contention that General Kayani is the key, 
that in a fledgling democracy such as Pakistan, where the rank-
and-file of the military have not acclimated to civilian rule, 
the generals still maintain an inordinate amount of influence, 
as was the case with his predecessor, Musharraf.
    My question is, to what extent are we--with the 
understanding that it is an independent state, that it has 
sovereignty, that all of its agencies of government have to be 
respected--to what extent are we focusing on Mr. Kayani, such 
that we can better understand his commentary?
    I read as of late some very strong language--to some 
extent, depending on what acid test you utilize for strong--but 
some language that connotes a dissatisfaction with some of our 
aid.
    I welcome anyone who would like to respond.
    Mr. Bergen. I think, just to comment on Pakistan, I mean, 
the center of gravity in this conflict is Pakistan. That is 
where al-Qaeda is. That is where the Taliban is.
    Pakistani public opinion is doing a 180, and this affects 
Kayani and everybody else, which is, what was seen as helping 
the United States in a war on terror, which they had--you know, 
they did not really want to be involved--in the last year has 
changed very dramatically.
    So, the attack into Waziristan was done with the full 
support of the Pakistani population. The attack in the Swat 
earlier this year was done with the full support of the 
Pakistani population, because the Pakistani population has 
turned against the Taliban, al-Qaeda, and these other jihadi 
groups.
    Has that turned into support for the United States? No. 
This is still one of the most anti-American countries in the 
world.
    But do we really care, if, at the end of the day, our 
interests and their interests are more closely aligning? It 
does not mean that they are going after the Quetta Shura 
necessarily, but it does mean that they are going after people 
who are attacking us right now in Afghanistan.
    So, I think that there is really kind of a bright future in 
this particular area.
    Mr. Green. Ms. Crenshaw, yes, if you would, please?
    Ms. Crenshaw. Well, to answer that question, I guess I am 
less optimistic than Mr. Bergen. I think that that is a really 
big question as to whether the Pakistani military under Kayani, 
given a lot of sympathy for the extremist movement among some 
elements of the military, whether they will continue.
    You know, the question I have is, what possessed the 
Pakistani Taliban to start attacking civilian targets, and thus 
provoke the wrath of the military, and how long this will last? 
So, I am not quite so optimistic.
    Mr. Green. Yes, sir.
    General Barno. Well, I would just add, I know General 
Kayani personally. I went to the U.S. Army Command and Staff 
College with him many years ago, which is a tribute to our 
international military education program, which was absent for 
a period of time after that, as we all know.
    He, in a lot of ways, I think, is the exemplar of where we 
would like the Pakistani military leadership to go. He is 
pulling, sometimes kicking and screaming, some of the 
subordinate officers in his direction.
    He has got a very close relationship with Admiral Mike 
Mullen, the chairman of the Joint Chiefs, who has gone far out 
of his way to spend time with him, both here in the United 
States and in Islamabad, and also, to promote programs to bring 
Pakistani officers here, part of which I am involved with, to 
help them better understand U.S. foreign policy, National 
security, what we are doing in counterinsurgency.
    So, I think he is a bright light there that is very, very 
helpful. He is going to make statements that are very much in 
the national interests of Pakistan. But at the end of the day, 
I think he is very much a good-news story for our goals there.
    Mr. Green. Thank you, Madame Chair. I will yield back.
    Ms. Harman. Thank you, Mr. Green.
    I would just observe that, based on a visit last week, I 
think the Pakistani military is impressive, and they are 
targeting terror groups. However, there seems to be a line 
between terror groups that attack them and terror groups that 
don't. Some of the ``don't'' group is still attacking in 
Afghanistan--attacking both Afghani military and our own 
troops. So, there is work to do. That would be my observation.
    The vote has been called.
    Ms. Jackson Lee, you get the final 5 minutes of questions.
    Ms. Jackson Lee. Thank you very much, Madame Chair, for 
your courtesies, and to the Ranking Member.
    In particular, Chair Harman, let me say that you are very 
much a part of the improvement that we have made in 
intelligence gathering since 9/11. So, thank you very much.
    Let me focus in on human intelligence.
    Thank you, Mr. Bergen, for clarifying your comments in 
response to Congressman Pascrell's questions. You are not 
suggesting a broad profiling of Muslim Americans.
    Mr. Bergen. No.
    Ms. Jackson Lee. Let me carry, then, as it relates to Major 
Hasan and the whole Fort Hood issue. I think it frees us up to 
ask a question about human intelligence. I would ask your 
commentary on what has been in the public domain about what we 
knew of him.
    The point that you made that the military is a very likely 
target, maybe you meant overseas. But let us just say that we 
look at Fort Dix, and now Fort Hood.
    What do you think we were missing in our advanced thinking? 
Living in a climate that Great Britain lives in, what were we 
missing in America in terms of not containing Major Hasan?
    I frankly believe it is a question of intelligence and 
sharing that intelligence. Do you have an assessment of that?
    If we take away, or have not looked at, or hold as a block 
the potential of his mental state, which I cannot judge at this 
point, but just the information that is in the public domain.
    Mr. Bergen. Well, certainly, the FBI was looking into his 
internet postings, as you know, about suicide bombings and his 
inquiries about the killings of innocents. They determined that 
this was not a subject--that the subject was within the realm 
of his normal activities as a psychiatrist dealing with Army 
veterans.
    Was that a mistake? It turns out that was a mistaken 
assumption. Was it a reasonable assumption at the time? 
Probably.
    Ms. Jackson Lee. But in the backdrop of what you are 
suggesting, the al-Qaeda amongst us, do we need to have a 
higher sensitivity that, as we look at that, wouldn't that have 
been appropriate for there to be quite a bit of exchange 
between the intelligence community, the military, and maybe the 
FBI?
    Mr. Bergen. Well, maybe. But just a comment. You know, 
since 9/11, there have only been probably two jihadi terrorist 
attacks in the United States--one by an African American 
convert to Islam in Little Rock, Arkansas, and one by Major 
Hasan.
    The sum total of Americans who died in these attacks is 
eight. Of course, those are all tragic. But, I mean, we have 
actually been pretty lucky. One of the reasons we have been 
pretty lucky is not because we are lucky, but because the kinds 
of things that you are suggesting we should be doing, are being 
done.
    Ms. Jackson Lee. So, you think, in light of this particular 
hearing, that there does not need to be an increased 
sensitivity and look at a Major Hasan in a different light?
    Mr. Bergen. I would say, the one thing that we still lack 
in the human intelligence realm is penetration of al-Qaeda 
itself. That to me is more important than the kinds of things 
that----
    Ms. Jackson Lee. That would be penetration worldwide, or 
here in the United States?
    Mr. Bergen. I am talking about overseas.
    Ms. Jackson Lee. So, that work needs to be done.
    Let me ask quickly about Afghanistan mixed with Pakistan. 
Are they intertwined? Does one rise and the other rises, and 
the other one falls and the other falls?
    General, are they intertwined in terms of the efforts that 
we need to make in both intelligence and tactics?
    General Barno. I think they are intertwined, and they are 
really one theater of war, in a sense. There are different 
challenges, and there are nuances in both places. But if you 
looked at this from the enemy's standpoint, they would very 
much view this as a single theater, as a single fight.
    We have to step back occasionally and not simply put the 
conventional borders on those countries, but look at it how our 
adversary looks at it, to make sure we are coming with a 
strategy that will defeat his strategy.
    Ms. Jackson Lee. Well, would anyone take me up on the point 
that I think there is a basic desire for democracy amongst the 
Pakistani people? Maybe based on their history, based on my 
interactions, there are these elements.
    How do we separate or push the democracy-loving people, 
even if there is a question about civilian rule versus military 
rule, so that we can encourage that democracy-building in 
Pakistan?
    Dr. Crenshaw.
    Dr. Pillar.
    Mr. Pillar. Any time we push, then we get back to the kiss 
of death problem. There was the earlier discussion about 
General Kayani. Absolutely, you know, the Chief of Army Staff 
in Pakistan always is one of the most politically powerful 
people in the world, even if we are not in one of those periods 
of direct military rule.
    But once we start pushing, people start pushing back.
    Ms. Jackson Lee. Okay. My pushing term, let me draw that 
back and say ``encouraging'' and ``suggesting'' that they have 
democratic tendencies in the civilian population.
    Yes, Dr. Crenshaw.
    Ms. Crenshaw. I do not want to sound too pessimistic, but 
it is the case that when we did try to offer them aid with very 
small strings trying to encourage more civilian influence, we 
got a pushback on that end.
    I will also point to the high levels of corruption in 
Pakistan, in addition to various autocratic tendencies. I think 
it is an enormous challenge.
    The general is quite right, that we have to see the two 
countries as part of a regional theater.
    Ms. Jackson Lee. Madame Chair, I just want to say this on 
the record. You know I co-chair that Pakistan Caucus and also 
the Afghan Caucus. I continue to have this battle.
    I think we need to work more with Muslim Americans, 
Pakistani Americans and others in a more visible way that 
translates to the civilian populations, in Pakistan in 
particular, to say that we are friends and democracy is good. I 
hope we can do that as we move on human intelligence.
    I yield back.
    Ms. Harman. I thank you for yielding. Let me observe that I 
share your view. It is not inconsistent with also being 
aggressive against specific threats.
    Having been there last week, I observed a lot of positive 
steps, both on the civil society side and on the military side, 
that we are taking in Afghanistan, in particular. We do not 
have military on the ground in Pakistan, but we do have efforts 
on-going.
    It was really, for example, heartening to be in Swat, which 
has now been taken back by the Pakistani government, and to see 
girls in school again, and to see the NGO community, which we 
actively support, engaged in rebuilding the girls' schools 
which were destroyed by the Taliban.
    So, there are positive efforts. I think they matter.
    Let me just close with this observation. I think, as some 
of you have observed--I think it was Dr. Pillar--we cannot 
win--whatever winning means--militarily against these threats. 
That doesn't mean our military does not have a role, but it is 
not the way we will succeed in this era--what I call an era of 
terror.
    We have to win the argument with the next generation and 
persuade them against this particular set of activities. To do 
that, I think we have to live our values. American generosity 
matters. The fact that we helped with the devastating 
earthquake in Pakistan was a big deal--similarly in Iran.
    So, there are things we can do way outside of the military 
and intelligence sphere that will have a big impact on how the 
future goes. It is a tough set of challenges.
    This panel was spectacular. I want to thank you all for 
excellent testimony and very good answers to very good 
questions.
    I want to thank the subcommittee and the full committee for 
what you brought to this hearing.
    We are going to have more of these, and we are going to try 
in the most careful way we can fashion to engage this very 
tough question of what changes someone with radical views into 
a violent killer, and especially focus on America, because 
there are new threats. I am aware of them among us. We want to 
be sure that we prevent and disrupt as many as possible, not 
just respond to them.
    Having no further business before the subcommittee, the 
hearing is adjourned.
    [Whereupon, at 11:36 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
